<html>
<title> - FISCAL YEAR 2008 BUDGET</title>
<body><pre>[Senate Hearing 110-48]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-48
 
                        FISCAL YEAR 2008 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

 OVERSIGHT HEARING ON THE PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST 
                          FOR TRIBAL PROGRAMS

                               __________

                           FEBRUARY 15, 2007
                             WASHINGTON, DC

                    U.S. GOVERNMENT PRINTING OFFICE
33-416                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman

                  CRAIG THOMAS, Wyoming Vice Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            PETE V. DOMENICI, New Mexico
DANIEL K. AKAKA, Hawaii              GORDON SMITH, Oregon
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARIA CANTWELL, Washington           RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           TOM COBURN, M.D., Oklahoma
JON TESTER, Montana

                Sara G. Garland, Majority Staff Director

              David A. Mullon Jr. Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Boyd, Roger, deputy assistant secretary, Office of Public and 
      Indian Housing, Department of Housing and Urban Development     8
    Cabrera, Orlando, assistant secretary, Office of Public and 
      Indian Housing, Department of Housing and Urban Development     8
    Cason, Jim, associate deputy secretary, Department of the 
      Interior...................................................     3
    Corwin, Thomas, director, Division of Elementary, Secondary 
      and Vocational Analysis, Budget Service, Department of 
      Education..................................................     6
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, 
      chairman, Committee on Indian Affairs......................     1
    Douglas, Peter, acting chief medical officer, Indian Health 
      Service, Department of the Interior........................     4
    Freeman, Catherine, deputy assistant secretary, Office of 
      Elementary and Secondary Education, Department of Education     6
    Grim, Charles W., director, Indian Health Service, Department 
      of the Interior............................................     4
    Hartz, Gary, director, Environment Health and Engineering, 
      Indian Health Service, Department of the Interior..........     4
    Johnson, Jeff, policy advisor, Office of Elementary and 
      Secondary Education, Department of Education...............     6
    Keel, Jefferson, Lieutenant Governor, Chickasaw Nation, and 
      first vice president, National Congress of American Indians    26
    Malina-Wright, Verlie Ann, president, National Indian 
      Education Association......................................    30
    McSwain, Robert, deputy director, Indian Health Service, 
      Department of the Interior.................................     4
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    16
    Peter, Douglas, acting chief medical officer, Indian Health 
      Service, Department of the Interior........................     4
    Posey, Ivan D., chairman, Shoshone Business Council, Wind 
      River Reservation..........................................    23
    Schofield, Regina B., assistant attorney general, Office of 
      Justice Programs, Department of Justice....................     9
    Shuravloff, Marty, chairman, National American Indian Housing 
      Council....................................................    32
    Smith, Sally, chair, National Health Board...................    28
    Swimmer, Ross, special trustee for American Indians, 
      Department of the Interior.................................     3
    Thomas, Hon. Craig, U.S. Senator from Wyoming, vice chairman, 
      Committee on Indian Affairs................................     2

                                Appendix

Prepared statements:
    American Indian Higher Education Consortium..................    42
    Begay, Marjorie, school board president, Lukachukai Community 
      Board of Education, Inc. (with attachment).................    49
    Cabrera, Orlando (with attachment)...........................    57
    Cason, Jim (with attachment).................................    69
    Coochise, Elbridge, chief justice, retired, representing the 
      Independent Review Team on Tribal Courts...................    85
    Eagelfeathers, Moke, board president, National Council of 
      Urban Indian Health........................................    89
    Freeman, Catherine (with attachment).........................    97
    Grim, Charles W..............................................    35
    Keel, Jefferson..............................................   119
    MacDonald-Lonetree, Hope, chairperson, Public Safety 
      Committee, Navajo Nation Council (with attachment).........   131
    Malina-Wright, Verlie Ann....................................   145
    Mann, Carla, member, Blackfeet Tribe.........................    37
    Pearson, Myra, chairwoman, Spirit Lake Nation, Fort trotten, 
      ND.........................................................    38
    Posey, Ivan D................................................    39
    Schofield, Regina B. (with attachment).......................   154
    Shuravloff, Marty............................................   174
    Smith, Sally.................................................   183
    Smith, Terry, assistant superintendent, Wapato School 
      District, Wapato, WA.......................................   196
    Swimmer, Ross................................................    69
    Wilson, Ryan, enrolled member, Oglala Sioux Tribe............   206


                        FISCAL YEAR 2008 BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan 
(chairman of the committee) presiding.
    Present: Senators Dorgan, Conrad, Murkowski, and Thomas.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
         DAKOTA, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. I am going to call the hearing to order this 
morning. This is a hearing of the Senate Committee on Indian 
Affairs.
    Today, we hear testimony from Federal and tribal witnesses 
concerning the President's proposed fiscal year 2008 budget 
request for tribal programs.
    The purpose of this hearing is to inform the committee 
about recommended funding levels, and also program priorities, 
as we develop our views and estimates letter to the Senate 
Committee on the Budget. The Senated Committee on the Budget, 
in turn, will consider our views and estimates letter as they 
prepare the fiscal year 2008 budget resolution.
    I want to thank all of the witnesses who have come this 
morning to testify. We realize that the President's budget for 
2008 was only recently submitted, I believe 10 days ago, to the 
U.S. Congress. We do have 10 witnesses at today's hearing. We 
have two votes starting at 10:30 a.m. Because of the number of 
witnesses, I would ask that we summarize the testimony. All of 
your statements will be made a part of the permanent record. 
But if you would cooperate with us in summarizing your 
statements this morning, we would very much appreciate it. We 
want to try to finish this hearing this morning.
    The budget request the President submitted to Congress on 
February 5 proposes to spend $2.9 trillion. There is a rather 
substantial increase for discretionary funding for the 
Department of Defense and Homeland Security, which one would 
expect given these times and given our challenges, but only a 
1-percent increase for non-discretionary spending. Especially 
with respect to the budget's dealing with Indian accounts and 
Indian issues, I am somewhat concerned about the lack in 
funding request and I hope that perhaps we can address some of 
those needs.
    I know that the Indian Health Service [IHS] has proposed an 
increase for contract health services of $49 million. That is a 
10-percent increase over the previous year, but it will still 
fall far short of what is necessary. We have in contract health 
a dramatic underfunding. One tribal chairman recently said they 
ran out of contract health funds in January, 3 months into the 
fiscal year. After that point, you get health care if you have 
life or limb threatened. If not, you are out of luck.
    We have a number of accounts that I believe need to be 
strengthened. The post-secondary scholarship adult education 
program is proposed for a reduction. I think those programs are 
very important. Johnson-O'Malley, that is a grant program that 
I think is very important. They propose to eliminate that in 
the budget. The budget proposes to eliminate the BIA's Housing 
Improvement Program. School construction and repair has a 
reduction in funding. The Urban Indian Health Care Program is 
once again proposed for elimination, which I think is a very 
serious problem.
    As I have gone through this, my own view is that we have a 
real crisis, particularly in Indian health care, a crisis of 
health care, housing and education. It does require some 
additional funding, and the budget, I feel, falls short in that 
area, but we need to work through this.
    I want to hear from your testimony this morning what you 
perceive to be the priorities. I want to work with the vice 
chairman, Senator Thomas, as we construct something that we 
will send to the Committee on the Budget.
    Again, I thank all of you for being willing to come and 
testify, and I ask that you will summarize your testimony this 
morning.
    Let me call on Vice Chairman Thomas.

STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING, VICE 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Thomas. Thank you, Mr. Chairman. We do have a lot 
to do, so I will be very short as well.
    First, I would like to welcome Chairman Ivan Posey of the 
Eastern Shoshone Business Council, who will be here today. I am 
delighted to have you.
    We are faced, as you all know, with the question of 
balancing our budget and controlling spending. So every budget 
that is currently being reviewed almost every committee, I am 
sure, would like to have more money. Who would not? But we do 
have to take a look at some of the disparities that exist in 
Indian country, particularly in health care, education, 
economic development, and make sure that we provide an 
opportunity for the tribes to be able to strengthen their own 
positions.
    Certainly, the budget is directed at holding down and 
making almost flat certain program appropriations, and clearly 
includes elimination of program duplication and allowing 
agencies to focus on their core responsibilities. I think that 
is an issue we should talk about today. Certainly, I am, as 
always, interested in the economic energy policy portion of the 
budget, so that the tribes can help themselves to be in a 
better position financially. I think there are some things we 
can do there.
    So I look forward to the witnesses, and thank you all for 
being here. We will need to work on it.
    The Chairman. Senator Thomas, thank you very much.
    The first witness today is Jim Cason, who is the associate 
deputy secretary of the Department of the Interior. He is 
accompanied by Ross Swimmer, who is the special trustee for 
American Indians at the Department of the Interior.
    Mr. Cason, you may proceed.

STATEMENT OF JIM CASON, ASSOCIATE DEPUTY SECRETARY, DEPARTMENT 
 OF THE INTERIOR, ACCOMPANIED BY ROSS SWIMMER, SPECIAL TRUSTEE 
                      FOR AMERICAN INDIANS

    Mr. Cason. Thank you, Mr. Chairman.
    The Department's fiscal year 2008 budget request for Indian 
Affairs is $2.23 billion, which is $1 million below the fiscal 
year 2007 continuing resolution level, and $7 million above the 
2007 President's request. The fiscal year 2008 budget request 
is consistent with the President's emphasis on fiscal 
discipline, while maintaining the Department's commitment to 
trust management reform and addressing the emerging areas of 
concern for tribes and Indian affairs.
    The 2008 budget request for the Office of Special Trustee 
totals $196.2 million, which is $15 million above the fiscal 
year 2007 continuing resolution, $48 million below the 2007 
President's request.
    Laying the foundation for the 2008 request are two 
secretarial initiatives supporting safe Indian communities and 
improved Indian education. The Safe Indian Communities 
Initiative consists of increases totaling $16 million to combat 
methamphetamine crisis, and resulting increase in violent crime 
besetting Indian country. The Safe Indian Communities 
Initiative focuses primarily on providing additional law 
enforcement detention officers, specialized drug enforcement 
training for new and existing officers, and public awareness 
campaigns on the dangers of drugs.
    With the additional funding provided through this 
initiative, Indian Affairs anticipates a decrease in drug-
related crime in targeted communities, greater crime deterrence 
through increased public police actions, and fewer dangerous 
incidences reported to the Bureau of Indians Affairs detention 
facilities.
    On the Indian Education Initiative, the Bureau of Indian 
Education Elementary and Secondary School System is comprised 
of 170 schools and 14 dormitories, located on 63 reservations 
in 23 States, serving almost 46,000 students. The secretarial 
initiative Improving Indian Education Initiative proposes 
increases totaling $15 million, to ensure Indian students 
graduating from the BIA-funded elementary and secondary school 
systems possess the academic knowledge and skills necessary to 
successfully compete for employment at home, and in the global 
economy.
    The Improving Indian Education Initiative is part of the 
Bureau of Education's $562 million request for elementary and 
secondary school operations, and supports the President's 
commitment to leave no child left behind.
    On another area, the Department has responsibility for the 
largest land trust in the world, as far as we know. Today, the 
Indian trust encompasses approximately 56 million acres of 
land. Of these acres, nearly 45 million are held in trust for 
Indian tribes. On these lands, the Department manages over 
100,000 leases for farming, grazing, and oil and gas production 
on behalf of individual Indians and tribes.
    In addition, the Department manages about $2.9 billion in 
existing balances in tribal trust funds and $400 million for 
individual Indian funds.
    In the 2008 budget, the Department proposes to invest about 
$490 million in a unified trust budget. That is between OST and 
BIA, to carry out our trust responsibilities.
    That is a summary of my testimony, Mr. Chairman. I am happy 
to answer questions.
    [Prepared statement of Mr. Cason appears in appendix.]
    The Chairman. Mr. Cason, thank you very much. We will defer 
questions until we have heard from all of the panelists.
    Next, we will hear from Dr. Charles Grim, the director of 
the Indian Health Service. He is accompanied by Robert McSwain. 
Would you identify yourself? Mr. McSwain is in the back. Deputy 
Director Dr. Douglas Peter, is he here? He is the acting chief 
medical officer. And Gary Hartz is the director of 
Environmental Health and Engineering. Mr. Hartz, thank you.
    Dr. Grim, thank you very much, and please proceed.

STATEMENT OF CHARLES W. GRIM, DIRECTOR, INDIAN HEALTH SERVICE, 
  DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY ROBERT McSWAIN, 
 DEPUTY DIRECTOR; DOUGLAS PETER, ACTING CHIEF MEDICAL OFFICER; 
  AND GARY HARTZ, DIRECTOR, ENVIRONMENT HEALTH AND ENGINEERING

    Mr. Grim. Thank you, Mr. Chairman and Mr. Vice Chairman. We 
appreciate the opportunity to testify before you today.
    I would just like to point out in summarization of some of 
the testimony that we have I think in the IHS over the years 
displayed an ability to effectively utilize the moneys that we 
have been given by Congress. We have seen huge improvements in 
health care over the last 3 decades.
    We are pleased with that progress, but we realize that 
there is still a lot of progress that needs to be made. We know 
that our population still have mortality rates for alcoholism, 
cervical cancer, motor vehicle crashes, diabetes, and 
unintentional injuries, homicide and suicide, that continue to 
be higher than the mortality rates for other Americans. Many of 
these health problems that contribute to these higher mortality 
rates are behavioral in nature.
    The IHS and our stakeholders are deeply committed to trying 
to address these disparities. We have begun three initiatives 
in the agency that were launched in 2005 with the specific 
intent of achieving positive improvements in the areas of these 
preventable health problems. They are the Health Promotion 
Disease Prevention Initiative, the Behavioral Health 
Initiative, and the Chronic Care Initiative, to target 
underlying risk factors for morbidity and mortality in our 
population.
    We are also working at re-engineering the IHS and tribal 
Indian health delivery systems to incorporate some of these 
best practices that have been documented in the scientific 
literature.
    I am pleased to present a budget that allows the IHS to 
continue these efforts and address the needs addressed by 
tribes. I would also point out that both the IHS and the 
Department participate in extensive regional and national 
consultation processes with the tribal governments, and with 
just a couple of exceptions, the budget that I am going to 
present today addresses the needs that have been emphasized as 
most critical by those tribal nations.
    The President's budget request for the IHS totals $4.1 
billion, a net increase of $212 million or 7 percent above the 
annualized fiscal year 2007 continuing resolution level, and 
also an increase of $101 million over the 2007 President's 
budget.
    In comparison, the overall discretionary budget request for 
HHS was an increase of only $95 million, or .01 percent over 
the 2007 continuing resolution level. This request allows the 
IHS and tribal health programs to maintain access to health 
care by providing $41 million to fund pay raises for Federal 
and tribal employees, $88 million to cover increases in the 
cost of delivering health care and to address the growing 
American Indian and Alaska Native population.
    Also, there are funds of $19 million to staff and operate 
two newly constructed health facilities that will be coming 
online in 2008. One of those is in Muskogee, Oklahoma. It is a 
joint venture project for the Cherokee Nation and funded the 
construction of the health center. Now, IHS is requesting funds 
to staff and operate it. The other facility is a youth regional 
treatment center located in Wadsworth, Nevada. This YRTC will 
provide short-term structured transitional living services to 
adolescents with alcohol and/or substance abuse addictions.
    The budget request also includes an additional $64 million 
to restore program losses that would be experienced under the 
annualized fiscal year 2007 CR level.
    To target these priority increase, the budget request also 
has a number of eliminations. As you pointed out, the Urban 
Indian Health Program, which is at $33 million currently; and 
we are also reducing the facilities appropriation by $24 
million. The focus on the President's budget for IHS is the 
provision of health care services and ensuring that the basic 
needs of all IHS and tribal health programs are met. Therefore, 
the budget request targets additional funding for the provision 
of health care on or near Indian reservations in order to serve 
a population who can't readily access health care from outside 
our system.
    The request in health care facilities is $12.7 million to 
continue the construction of the Barrow, Alaska Hospital. 
Consistent across all of HHS, facilities funding requests are 
maintaining existing facilities construction and completing 
projects that have already received initial funding.
    The proposed budget that I just described provides a 
continued investment in the maintenance and support of our 
health system to be able to provide access to high-quality 
medical and preventive services.
    I appreciate the opportunity to be able to present this 
2008 budget to the committee, and I would be pleased to answer 
any questions that you might have on it.
    [Prepared statement of Dr. Grim appears in appendix.]
    The Chairman. Dr. Grim, thank you very much. We thank you 
and your staff for being here once again.
    Next, we will hear from Catherine Freeman, deputy assistant 
secretary, Office of Elementary and Secondary Education at the 
Department of Education. She is accompanied by Jeff Johnson, 
policy advisor, Office of Elementary and Secondary Education; 
and Thomas Corwin. Where are they? Thank you for being with us.
    Ms. Freeman, you may proceed.

  STATEMENT OF CATHERINE FREEMAN, DEPUTY ASSISTANT SECRETARY, 
  OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, DEPARTMENT OF 
  EDUCATION, ACCOMPANIED BY JEFF JOHNSON, POLICY ADVISOR; AND 
THOMAS CORWIN, DIRECTOR, DIVISION OF ELEMENTARY, SECONDARY AND 
              VOCATIONAL ANALYSIS, BUDGET SERVICE

    Ms. Freeman. Thank you. Mr. Chairman and members of the 
Committee, on behalf of Secretary Spellings, I thank you for 
the opportunity to discuss our fiscal year 2008 budget request 
for Department of Education programs that address and serve the 
needs of American Indians and Alaska Natives.
    I request that my written statement be entered into the 
record.
    The Chairman. Without objection.
    Ms. Freeman. The Department of Education, led by Secretary 
Spellings, is strongly committed to ensuring that American 
Indian and Alaska Natives benefit from national education 
reforms and receive every opportunity to achieve high academic 
standards. Recent data suggest that our investments in Indian 
education are beginning to take hold.
    American Indian and Alaska Native students have scored 
higher than some other minority groups on the most recent 
national assessment of educational progress in reading and 
math. Furthermore, American Indian students are pursuing post-
secondary education at higher rates than ever before. The 
number of Indian students enrolled in colleges and universities 
has more than doubled over the last 25 years.
    Despite this progress, significant achievement gaps persist 
between the American Indian and Alaska Native student 
population and the general population. Support from Federal 
programs remains an imperative in addressing the specific 
educational and cultural needs of the American Indian and 
Alaska Native population.
    In the past 5 years since the passage of No Child Left 
Behind Act [NCLB], States and local educational agencies have 
made significant progress implementing landmark education 
reforms. The progress achieved to date under NCLB is extremely 
promising. The most recent results from the national assessment 
of educational progress shows scores rising significantly in 
both reading and math in the early grades, and achievement gaps 
between some minority groups and their white peers falling to 
all-time lows.
    Building on these successes, it is now time to work on a 
reauthorization of NCLB that will preserve and strengthen its 
core principles of high standards and accountability. Last 
month, the Administration released ``Building on Results: A 
Blueprint for Strengthening the No Child Left Behind Act.'' 
This reauthorization proposal, along with the Department's 2008 
budget request, focuses new resources toward the important 
issue of turning around struggling schools and improving the 
academic performance of middle and high school students.
    The reauthorization proposal also focuses on strengthening 
Federal and State efforts to close the achievement gap through 
the implementation of high standards and comprehensive 
accountability system; ensuring that middle and high schools 
offer rigorous course work that prepares students for post-
secondary education or the workforce; providing flexibility and 
resources to help States restructure chronically 
underperforming schools; and, last, providing families with 
increased options for educating their children.
    Through these educational reforms, the Administration 
remains committed to helping to ensure that all students, 
including American Indian and Alaska Natives, are proficient in 
reading and mathematics by 2014.
    The President's fiscal year 2008 budget request increases 
total funding for NCLB by $1.2 billion, to $24.5 billion, a 41-
percent increase since 2001. One of the most significant 
increases is for the title I program, a $1.2-billion increase, 
primarily to provide additional resources to high schools 
serving large numbers of low-income students. Further, the 
President is requesting $500 million in new funding for title I 
school improvement grants. This program will help States 
restructure, reform, and re-staff chronically underperforming 
schools. These two initiatives would have important 
implications for the education of Indian students since many of 
these students receive services through title I.
    The 2008 budget request for the Department of Education 
also supports the President's commitment to provide resources 
to help improve educational opportunities for all students. 
Overall, Department programs would, under the fiscal year 2008 
budget, provide close to $1 billion in direct support for 
Indian and Alaska Natives. The Interior Department's Bureau of 
Indian Education would receive over $220 million of Department 
of Education funds to support Indian education programs 
operated by that agency.
    The 2008 request for the Department's Indian education 
programs is $118.7 million. These programs, which are 
administered by the Office of Indian Education, include formula 
grants to school districts, competitive programs, and national 
activities for research and evaluation on the education needs 
and status of the Indian population.
    In conclusion, the 2008 budget request for the Department 
of Education programs serving American Indians and Alaska 
Natives supports the President's overall goal of ensuring 
educational opportunities for all students.
    Thank you for the opportunity to appear before the 
committee. My colleagues and I will be happy to respond to any 
questions which you may have.
    [Prepared statement of Ms. Freeman appears in appendix.]
    The Chairman. Ms. Freeman, thank you very much. We 
appreciate your being here.
    Next, we will hear from Orlando Cabrera. He is the 
assistant secretary of the Office of Public and Indian Housing 
at the Department of Housing and Urban Development.
    Mr. Cabrera, thank you and welcome back.

 STATEMENT OF ORLANDO CABRERA, ASSISTANT SECRETARY, OFFICE OF 
  PUBLIC AND INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN 
    DEVELOPMENT ACCOMPANIED BY ROGER BOYD, DEPUTY ASSISTANT 
                           SECRETARY

    Mr. Cabrera. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Vice Chairman, and distinguished members 
of the committee, thank you for inviting me to provide comments 
on President Bush's fiscal year 2008 budget for Native 
American, Native Hawaiian Housing, loan guarantee, and 
community development programs.
    My name is Orlando Cabrera. I am the assistant secretary 
for public and Indian housing at the Department of Housing and 
Urban Development. Mr. Chairman, I request that my written 
statement be entered into the record.
    The Chairman. Without objection.
    Mr. Cabrera. Thank you.
    From HUD's perspective, much progress has been made. Tribes 
are taking advantage of new opportunities to improve the 
housing conditions of Native American families residing on 
Native American reservations, on trust or restricted lands, in 
Alaska Native villages, and on Hawaiian homelands. This 
momentum needs to be sustained as we continue to work together 
toward creating a better living environment in Native American 
communities.
    At the outset, let me reaffirm the Department of Housing 
and Urban Development's support for the principle of 
government-to-government relations with federally recognized 
Native American tribes. HUD is committed to honoring this core 
belief in our work with American Indians and Alaska Natives.
    HUD's Native American and Native Hawaiian housing and loan 
guarantee programs are the linchpins for accomplishing home 
ownership within Indian country. For example, our latest 
figures show that during fiscal year 2006, tribes and their 
tribally designated housing entities used Indian Housing block 
grant funds to build, acquire or rehabilitate more than 1,600 
rental units and more than 6,000 home ownership units. Each of 
these units has become a home to a Native American family.
    There have been recent successes with our loan guarantee 
programs as well. I will tell you more about these later.
    Let me now turn to the President's budget request for 
fiscal year 2008. This budget proposes a total of $698.819 
million specifically for Native American and Native Hawaiian 
housing loan guarantees and community development. There is 
$626.965 million proposed for the Indian Housing Block Grant 
Program, which is authorized by the Native American Housing 
Assistance and Self-Determination Act, NAHASDA. Of that amount, 
approximately $620.735 million is for direct formula 
allocations through the IHBG Program. There is $1.980 million 
in credit subsidy, which will leverage $17 million in loan 
guarantee authority is proposed for NAHASDA's title VI tribal 
housing activities loan guarantee fund. There is $4.250 million 
allocated for IHBG-related training and technical assistance; 
$57.420 million is for grants under the Indian Community 
Development Block Grant; $7.450 million in credit subsidy which 
will support $367 million in loan guarantee authority is for 
the section 184 Indian Housing Loan Guarantee Fund, the engine 
for home ownership in Indian country.
    The Native Hawaiian community would receive through the 
Department of Hawaiian Homelands $5.940 million for the Native 
Hawaiian Housing Block Program, and there is $1.044 million for 
the section 184 Native Hawaiian Home Loan Guarantee Fund, which 
is the corollary to the section 184 program, and will leverage 
approximately $41.5 million in loan guarantees.
    Finally, there is a total of $4.550 million available for 
training and technical assistance to support the Native 
American and Native Hawaiian Housing Block Grant Program.
    Now, in brief summary and by way of highlight, the title VI 
program in 2005 underwrote four loans, and in 2006 underwrote 
10 loans. So we are continuing to promote that program. That 
program helps tribes and Alaska Native organizations to develop 
infrastructure upon their lands.
    In 2001, less than 100 loans were underwritten under the 
section 184 program. In 2006, 1,138 loans were underwritten 
under the section 184 program, with a total volume of $190 
million. As of the first quarter of 2007, we have underwritten 
266 loans. So that program is actually taking off quite well.
    We are working very closely with the BIA in the U.S. 
Department of Agriculture Rural Development, under our title 
search components, in order to facilitate the underwriting of 
those loans.
    Finally, we entered into an agreement with the Department 
of Hawaiian Homelands in February of last year in order to make 
loans more readily available. That program is now beginning to 
take off simply because they have made the adjustments that 
they have needed to make, and they intend to develop 6,000 
units in the next 5 years.
    My last point, Mr. Chairman, Mr. Vice Chairman and members 
of the committee, is NAHASDA is up for reauthorization, as are 
other vital components of housing legislation this year. We 
strongly encourage and support the reauthorization of NAHASDA.
    This concludes my prepared remarks. I would be happy to 
answer any questions that you might have. Mr. Chairman, I am 
sorry, if I might be indulged, I was accompanied today by Roger 
Boyd, who is our deputy assistant secretary.
    The Chairman. Would he identify himself?
    All right. Thank you very much. Welcome.
    [Prepared statement of Mr. Cabrera appeaers in appendix.]
    The Chairman. Finally, we will hear from Regina B. 
Schofield, assistant attorney general, Office of Justice 
Programs in the Department of Justice.
    Ms. Schofield, welcome.

 STATEMENT OF REGINA B. SCHOFIELD, ASSISTANT ATTORNEY GENERAL, 
       OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE

    Ms. Schofield. Good morning, Mr. Chairman, Mr. Vice 
Chairman, and other members of the committee.
    I am pleased to be here today on behalf of the Attorney 
General and the Department of Justice to discuss the 
Department's proposed fiscal year 2008 budget priorities for 
Indian country.
    The needs of Indian tribal governments in combating crime 
and violence continue to be great, especially in the areas of 
substance abuse, domestic violence and other violent crimes. I 
share the Administration's commitment to addressing these 
needs, and have made improving the government-to-government 
relationship between tribes and the Federal Government a 
personal priority.
    One of my primary goals at OJP is strengthening access for 
tribes. Too often, tribal government officials, law enforcement 
and others who work on criminal justice issues find it 
difficult to locate information about grants, training and 
other types of assistance. In response, last November, I 
launched the Department of Justice's new website created 
specifically for Indian country, 
www.tribalsafetyandjustice.gov. This website features 
information on grants, training, technical assistance, 
publications and conferences that can help tribal communities.
    The new website is one of many areas in which DOJ is 
reaching out to tribal communities and governments. In 2005, I 
established a Justice Programs Council on Native American 
Affairs. This council coordinates OJP's efforts on behalf of 
tribes and serves as a liaison to other Department of Justice 
components on tribal issues.
    We want to find out how we can better serve tribal 
communities; how we can get information to them more quickly; 
how we can we provide them with better training; and how we can 
make sure our funding resources respond to their needs.
    I am constantly striving to improve our other training and 
technical assistance efforts. This fiscal year, I implemented a 
series of four national tribal justice and safety training and 
technical assistance sessions. In addition, as the national 
Amber Alert Law Coordinator, I am exploring ways to raise 
awareness about this program in Indian country.
    The President's proposed fiscal year 2008 budget creates 
new competitive grant programs that will provide States, 
localities and Indian tribes with flexibility to address their 
most critical needs. Many of our current State and local law 
enforcement grants will be consolidated into the Byrne Public 
Safety and Protection Program. States, local governments and 
tribal governments would be able to use Byrne funds for many 
law enforcement and criminal justice purposes. We are 
requesting $350 million for this program in fiscal year 2008.
    Another new initiative would be the Violent Crime Reduction 
Partnership Program. This will help communities suffering from 
high rates of violent crime to form law enforcement task 
forces, including local, State, tribal and Federal agencies. We 
are requesting $200 million for this program in fiscal year 
2008.
    We also propose consolidating many of our juvenile justice 
and child victimization programs into a new Child Safety and 
Juvenile Justice Program. This will assist States, local 
governments, and tribal governments in reducing child 
exploitation and abuse, strengthening juvenile justice systems, 
and bolstering school safety efforts. We are requesting $280 
million for this program in fiscal year 2008.
    With your permission, Mr. Chairman, I would like to submit 
a list of my accomplishment at OJP, as well as those achieved 
at the Department of Health and Human Services.
    I welcome the opportunity to answer any questions. Thank 
you.
    [Prepared statement of Ms. Schofield and referenced 
document appears in appendix.]
    The Chairman. Ms. Schofield, thank you very much.
    Let me thank all of you for appearing. I know all of you 
work hard to try to do the best job you can. I know your 
responsibility also is to come here and defend the President's 
budget. I respect that and I understand that.
    Mr. Cason, you have been here many times. You wouldn't be 
here again if you came here to say; ``You know, here is what 
the President's budget requests, but I don't agree with it. It 
is short and we need to do better.'' If you said that, the next 
time we invited you, we would be having you appear as a private 
citizen. [Laughter.]
    The Chairman. So I understand the need to support the 
President's budget. But I do want to say this, my colleague, 
Senator Thomas, is absolutely correct. We have a devastating 
fiscal policy problem, and we have to try to put it back on 
track somehow and make sense of it, and try to move toward a 
balanced budget.
    At the same time, it seems to me we have to deal with the 
most crucial issues that people face in this country. One of 
the populations in this country that I think is at risk, lives 
often in third-world conditions, is the Native American people, 
the first Americans, who live on reservations. Frankly, I think 
much of what I hear in these reports is at odds with what I 
see.
    We have someone come to us and say to us, this is a tribal 
chairman; ``My two daughters, one has eight children, one has 
three children; They both live in used trailer homes that were 
brought to my State,'' in this case it was the State of South 
Dakota, ``used trailer homes moved to South Dakota from 
Michigan. They both heat their homes with wood-fired stoves; 
neither have running water and neither have indoor toilets.''
    Is that America? It sounds like a third-world country, 
doesn't it?
    Or a patient that comes from the Indian Health Service with 
a serious knee ligament problem, and they wrap it in cabbage 
leaves. That is the treatment, and that is testimony before 
this committee, by the way.
    Or a fellow that has an arm with a torn ligament who can't 
get help for 4 years because it is not life or limb, and he is 
a rancher. What do you think a one-armed rancher does? And 
finally he gets surgery after 4 years because one doctor 
threatens and says it is life or limb for a rancher if you 
don't have two arms.
    My point is, I think in housing and health care and so many 
areas, in many ways I think with these budgets we are managing 
defeat, zeroing out Johnson-O'Malley funds; reducing funding 
for school construction, when we know that these are some of 
the schools that are in the worst shape in the country, the BIA 
schools.
    So look, I welcome your testimony. I am pleased that you 
are all here. I am pleased you are all doing the work that you 
are doing, because I think you are doing as good a job as you 
can in circumstances where there is not adequate funding. But 
when a tribal chairman says to me, ``We run out of contract 
health funding in January, January, 3 months into the year.'' 
At that point, if you have a medical problem and it is not 
going to threaten to cause your death or the loss of a limb, 
you are out of luck.
    So I mean, I just think that we have very serious problems 
here. I am going to ask a couple of questions, and then let my 
colleagues ask questions. I am not interested in managing 
defeat, nor would I expect are you. I think we want to find 
ways to, in quantum leaps, improve the life of Native Americans 
in this country through decent health care, decent housing, and 
opportunities for a good education.
    Mr. Cason, the two initiatives that you talked about, the 
Secretary called me about those initiatives. I support both of 
them, but it is a fact, isn't it, that those two initiatives 
come out of expenditures in other areas? It is not as if two 
initiatives were added to the budget. There are other areas 
that were decreased in order to make room for those two 
initiatives.
    Mr. Cason. Mr. Chairman, as you know from seeing our budget 
submissions, we have essentially a flat budget. So there were a 
lot of activities within our budget which resulted in 
prioritizing where we spend money. We have had very active 
discussions with representatives from Indian country about what 
the priorities are. Our budget reflects the results of those 
discussions, where we say, here is the amount of money we have; 
how do we spend that money to get the biggest bang for the buck 
in Indian country. Part of that process resulted in the 
initiatives that recognize the huge responsibility that we have 
to educate our Indian children and achieve success there, and 
to recognize the scourge of methamphetamine production, use and 
distribution in Indian country, and try to attack that problem. 
So that is true.
    The Chairman. Dr. Grim, tell me about contract health care. 
I think you have said before, not very publicly and perhaps not 
into a microphone, but I think your agency has at my insistence 
finally indicated to me that we are meeting about 60 percent of 
the health care needs, which sounds to me like we are not 
meeting 40 percent. I think most people would say there is 
full-scale health care rationing going on. Most of us recoil at 
the notion of health care rationing. It is happening.
    So with that circumstance, and especially the circumstance 
I discussed with respect to contract care, what is the budget 
recommending with respect to contract care, as opposed to last 
year?
    Mr. Grim. I will speak from over the 2006-enacted level, 
since that is where things were built. It is a $52-million 
increase on a $517-million budget. So it is a 10-percent 
increase in that particular line item, which I think is 
significant. The Administration recognized the need. We have 
heard it through you. We have heard it from tribal leadership. 
So it received one of the most significant increases in our 
budget.
    The Chairman. How short will it be, even with the increase, 
for which I am appreciative? How short will it be to meeting 
the needs? Because when I hear tribal chairmen tell me that 
they run out of contract health care money by in January, other 
tribal chairmen tell me they know on their reservations the 
refrain is, ``do not, do not, do not get sick after June, 
because there won't be money available in contract health.'' 
How short are we of meeting the need, despite this increase?
    Mr. Grim. The way the agency manages those funds, as you 
are well aware, is with a priority system, a health priority 
system. Each particular service unit, hospital or clinic, gets 
a budget and they are asked to manage within it for the entire 
year. So we really don't know entirely how short we would be of 
need until the end of the year. We do track deferral and denial 
sorts of numbers.
    The Chairman. One of the things I would like to do, and I 
am going to work with my colleagues on this committee, I would 
like to see if we can move toward a different model of health 
care within the IHS as well. In the commercial sector, there 
are developed across this country now, or beginning to be 
developed, walk-in clinics 7 days a week, staffed by nurse 
practitioners for 80 or 90 percent of the routine diagnoses. I 
think we need to find a way on Indian reservations to have no 
reservation needed; walk-in capability; staffed by a physician 
assistant and nurse practitioner 7 days a week, with decent 
hours.
    The fact is, on some of the reservations, if you are sick 
after 4:30 p.m. on Friday, the clinic is down. You are out of 
luck until Monday. They are in remote areas. I would like to 
work with you to see if we can develop a different model with 
respect to some of those issues as well.
    I am going to submit a series of questions, Dr. Grim, to 
you, and also to Mr. Cason.
    Ms. Freeman, thank you for describing what the Department 
of Education has done, but as you know, on the education side, 
in other areas of the budget we are seeing the proposal to 
eliminate once again the Johnson-O'Malley funding. Almost 
everybody tells me that is critically important funding for 
Indian children ages three to seventeen, really important. Do 
you have any observation about that? Why would we see a 
recommendation to abolish the Johnson-O'Malley Program?
    Ms. Freeman. What we do see, sir, in the budget is a 
concentration on the priorities of assessment and 
accountability within No Child Left Behind. There is an 
increase in the title I funds that go directly to LEA's, as 
well as an increase in the title I improvement funds.
    We also have, as you know, through title VII, moneys that 
go to LEAs through formula and demonstration grants, which the 
Administration feels are equally important.
    The Chairman. And you feel that will justify eliminating 
the Johnson-O'Malley Program? Will there be funding that you 
think will be a seamless transition for the replacement of 
funds that tribes have normally been able to use under Johnson-
O'Malley?
    Ms. Freeman. Sir, the Johnson-O'Malley is funded through 
the Interior.
    The Chairman. I understand that, but it is still an 
education function. When I asked the question, I recognized 
that is not coming from the Department of Education, but it is 
part of the education continuum. I am asking, I guess, and I 
have asked Mr. Cason before why did they suggest that we dump 
or eliminate the Johnson-O'Malley Program, because everyone 
tells me how important it is.
    Ms. Freeman. Education is committed to working with 
Interior. We recognize that there are some significant concerns 
with academic achievement on tribal lands, and we understand 
that the Bureau of Indian Education is trying to look at those 
concerns, especially with the new director coming on board. The 
Department of Education will be going out to the tribes and 
seeing how we can partner with the Department of the Interior.
    The Chairman. Mr. Cabrera and Ms. Schofield, I think all of 
us perhaps have toured some of the housing circumstances and 
detention facilities and so on, and realize that you are trying 
to make some progress in these areas. But we have so far to go, 
particularly in housing stock. I mean, there is some housing 
stock out there that really looks uninhabitable that people are 
trying to live in.
    I appreciate your testimony about what is in the budget. We 
need to work to deal with these issues, because as I mentioned, 
I think there is a full-scale crisis in housing, health care 
and education. I appreciate your describing what is in the 
budget. We need to try to see, is there a way for us to begin 
to deal with these with some additional resources?
    I don't know the answer to that. I know we are going to now 
approve very soon another $100 billion emergency supplemental 
dealing with the war in Iraq and Afghanistan. I understand why 
we have to do that, but 1 percent, 1 percent of that single 
emergency supplemental that will take us now over $600 billion, 
1 percent of that would be so important in terms of dealing 
with this range of housing, health care, education crisis on 
reservations. So we need to find a way to address those issues.
    I want my colleagues to be able to have the opportunity to 
ask questions. So what I am going to do is submit a list of 
questions. Mr. Cason, I have a couple of other questions when 
my colleagues are complete, but I thank all five of you for 
presenting testimony today.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    Well, of course, budgets are never what we would hope they 
would be for any of the programs. I hope that most of the 
opportunities here are for the tribes to help create some 
things that will fulfill their own priorities.
    Mr. Cason, the Department has proposed $2 million for 
Indian energy resource development in the title V of the Indian 
title of energy policy. What progress has the Department made, 
if any, on implementing those provisions?
    Mr. Cason. Senator, we have an active process in the 
Department, not only within Indian Affairs, but the entire 
Department implementing the provisions of the Energy Act. 
Within our budget, as you said, we are asking for $2 million 
for it.
    Senator Thomas. What have been the results?
    Mr. Cason. We have been working on the domestic supply 
side, both in Indian Affairs and in the other land management 
agencies, particularly the Bureau of Land Management and the 
Minerals Management Service. So there have been substantial 
results there.
    Within our Indian budget, what we are looking at there is 
of all the resources we have in Indian country that potentially 
contribute to the energizing of Indian economic opportunity, 
energy and minerals is one of those. We have a division in 
Indian Affairs that is specifically oriented to economic 
development, and that is where we are trying to place the money 
and use that to spur economic development in Indian country.
    Senator Thomas. Well, I hope so. You know, we are in a 
whole national situation with energy, and now is an opportunity 
for developing those things.
    In law enforcement, your proposal increases the services, 
but proposes a $44,000-decrease in tribal courts. What is the 
rationale for decreasing the tribal court funding?
    Mr. Cason. One of the things we have done recently is 
integrate all of our law enforcement public safety-related 
programs. We have effectively put together the uniformed police 
officers, the COPS part, with the courts, with the jails, put 
it under common leadership, and then looked at the various 
resources we have across all of those to maximize what we think 
is the best mix of money for each of those elements.
    In the tribal court situation, we have some tribal courts 
and we have some CFR courts, and some of the crimes go outside 
to State or District Courts. So what we have tried to do is 
balance between those three things, the investment of public 
safety money.
    Senator Thomas. Okay.
    Mr. Grim, the budget proposes only $12.7 million for health 
care facilities. I understand the unmet needs in 2005 were 
nearly $1.5 billion, yet the 2006 budgetimposed a 1-year 
moratorium on health care construction by the Department. In 
this budget request, how do you plan to address these unmet 
needs?
    Mr. Grim. We are trying to focus our budget, Senator, 
primarily on the delivery of services now, and not 
infrastructure. That was the rationale for keeping the 
facilities budget low over the last couple of the President's 
budget proposals, as opposed to just the 1 year. As the budget 
began getting tighter and budget reduction kicked in, it was 
our thought that the provision of services was a higher 
priority than it was for the building of infrastructure and 
facilities, although we recognize the importance of that 
program and are trying to keep it moving forward.
    Senator Thomas. Have there been studies to confirm urban 
Indian patients' access to other health care facilities?
    Mr. Grim. Not to my awareness, Senator Thomas. We don't 
have any studies, but we do know some percentage of the 
population is eligible for Medicare or Medicaid or has private 
insurance, and would have other options. We don't know if that 
is 100 percent of the patients that would be accessing our 
urban Indian health programs, though.
    Senator Thomas. Indian urban health care is one of the real 
issues that seems to be out there, however, and there does seem 
to be lots of facilities.
    Does the Indian Health Care Improvement Act require urban 
programs to show there is no duplication of services before 
they qualify for funding?
    Mr. Grim. Yes; one of the numerous criteria used under 
title V of the Indian Health Care Improvement Act includes that 
urban Indian programs entering into contracts or grants with 
IHS show to the extent, if any, any duplication of public or 
private health services to the centers urban Indian population.
    Senator Thomas. Ms. Freeman, you state that Indian students 
are subject to significant risk factors that affect their 
academic achievement. What are these risk factors?
    Ms. Freeman. Well, as you have heard in previous testimony, 
the Department is aware of the seriousness of the amphetamine 
problem that is found in many of the high schools. We also know 
that there are significant dropout rates within the Indian 
schools, and those risk factors are what we are trying to 
addres. As well as we know that the academic achievement of 
these students is below average in most cases.
    Senator Thomas. Well, I have some other questions to submit 
also, Mr. Chairman, but I will stop there.
    The Chairman. Senator Thomas, thank you very much.
    Senator Murkowski, go ahead.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate the comments from all of you this morning, all 
your good work. Thank you to those of you have taken the time 
to come to visit the State. Mr. Cabrera, we appreciate your 
visit this summer. Dr. Grim, you are a frequent visitor and we 
greatly appreciate that. Ms. Freeman, I can't pass up the 
opportunity to again invite the Secretary of Education to join 
us up in Alaska. I think we are getting closer and we want to 
make sure that she has an opportunity to do that.
    Let me start out with the education issues. I heard your 
comments about the perspective from the Department of Education 
in supporting the President's goals for educational 
opportunities for all students. I was a little concerned, 
though, about your response to Chairman Dorgan here with 
regards to the Johnson-O'Malley funds. I think you made the 
statement that the priority from the Department of Education is 
focusing on assessment and accountability.
    We all appreciate that in the days of No Child Left Behind, 
that is where the focus is and that is where the scrutiny is. 
But if we recognize that we have a group of students, we have 
children that are not performing well, we are going to assess 
and we are going to get the response that we anticipate because 
we already know that they are not performing well. So when we 
take away those programs that might provide that level of 
assistance so that they can get to a point where they will do 
better in terms of accountability and assessment, I am very 
concerned when we take the programs, where we know we have seen 
benefit. Johnson-O'Malley is one of them.
    Another one that I want to ask you about today is the 
Alaska Native Educational Equity Funds. You are proposing that 
this program be zeroed out, and this, without any warning at 
all, so far as I know, to our Alaskan school districts. I was 
drawn to this very unwieldy matrix here that lists all of the 
various programs to the villages throughout the State of 
Alaska. Significant hits to all of them, and I am wondering 
what the justification for zeroing out this specific program in 
the State of Alaska is, if you can speak to that aspect of the 
budget?
    Ms. Freeman. With any program elimination, we first looked 
at whether there is redundancy in funding. The second issue is 
whether the program is effective. And third is whether the 
funds could be provided through State, local or private funds. 
But I think the important point here is that we have asked for 
a $1.2 billion increase in title I funds that do go directly to 
the LEAs and will support Indian education, in addition to the 
school improvement funds, which will also go to Indian 
education.
    Senator Murkowski. So essentially, you are taking title I 
money. We need the title I moneys from the get-go.
    Ms. Freeman. That is correct.
    Senator Murkowski. Whether it is Alaska or whether it is 
Wyoming, so are you saying that you are going to eliminate 
these programs and just say, well, we are going to put it all 
through title I? Are you going to increase the title I funds?
    Ms. Freeman. Title I has been increased.
    Senator Murkowski. But will the increase or the bump-up 
compensate, then, for all of the programs that have been 
proposed to be zeroed out?
    Ms. Freeman. I will let our budget analyst continue.
    Senator Murkowski. Okay.
    The Chairman. Will you identify yourself?
    Mr. Corwin. Good morning, Senator. I am Tom Corwin from the 
Budget Service, Department of Education.
    As Dr. Freeman said, yes, we have a $1.2-billion increase 
in for title I. There is never a one-to-one correlation between 
the programs that are proposed for increase and the funds that 
are proposed for elimination. But we do think that is going to 
be an extremely important increase for title I. That is a very 
large increase in a $12.8-billion or $13-billion program.
    Those programs are targeted to the schools with the highest 
concentrations of poverty, such as schools that serve American 
Indians and Alaska Natives, and I think they will have a major 
impact.
    Senator Murkowski. But you are acknowledging that it is not 
a dollar-for-dollar match?
    Mr. Corwin. They are two very different funding streams.
    Senator Murkowski. I understand that they are different 
funding streams. My concern is, is that we are eliminating 
programs that have demonstrated to be very beneficial to my 
constituents up north, with the Alaska equity, the Native 
Educational Equity Funds. If we are now eliminating those, we 
are plussing-up title I, but we are not doing it sufficiently 
to take into account the zeroing-out of this program, that 
causes some concern here.
    Let me ask you, then, about another program that has been 
proposed to be zeroed out. This is the Alaska Native and Native 
Hawaiian-Serving Institutions Program, the higher education 
institution program. This is also being proposed to be 
eliminated. This is not one where you are going to be able to 
supplement it from title I. What is the justification on that 
issue?
    Mr. Corwin. On that one, you have the larger strengthening 
institutions program, which is for colleges and universities 
that serve concentrations of traditionally underserved 
populations, Native Americans, Hispanics, African Americans and 
so forth. That program is funded at about $79 million. Our 
understanding is the Native Hawaiian and Alaska Native-Serving 
institutions can apply under that program. Our hope is that 
they will, but this was just one of the tough budget calls that 
we had to make in the Department.
    Senator Murkowski. We are going to be working with Senator 
Inouye and Senator Akaka on this issue.
    Mr. Grim, I want to ask you about two of our favorite 
projects up in Alaska. The Native hospital in Barrow is on the 
list, number one on the priority list to proceed, and we are 
very, very thankful for that. We know that you appreciate the 
need for that, but the project in Nome is not on the list. 
Because it is not on the priority list, what does this mean to 
us in terms of being able to see a facility there in Nome?
    Mr. Grim. Senator, what we will be doing is we will be 
taking a look at Nome as we develop our 2009 budget process. It 
was our current understanding that the work that Nome is 
currently involved in won't be completed until August or 
September, so late-summer, early fall. So we are looking at 
potentially raising that as a 2009 budget issue.
    Senator Murkowski. So does it set the project back a full 
year or more than that? Do you know?
    Mr. Grim. No; it doesn't set it back. The design completion 
isn't scheduled until August of 2008, so it was toward the very 
end of this fiscal year before they would be ready to begin 
construction anyway.
    Senator Murkowski. Okay.
    Ms. Schofield, this relates to the Alaska Rural Justice 
Commission. As you know, our former U.S. Attorney General Tim 
Burgess was very involved and active in that commission. He has 
now moved out of that position and has been appointed as a 
Federal judge. We have a new acting interim U.S. Attorney 
General who is from out of State. Can you give me some 
assurance that the Justice Department is remaining engaged in 
the work of the Rural Justice Commission?
    Ms. Schofield. I have read the report last year, as you 
mentioned, and I will back up in Alaska in September. I will 
make sure through the Native American Issues Subcommittee that 
the Attorney General has someone chairing, that there will be 
someone very much engaged in the Rural Justice Commission.
    Senator Murkowski. I appreciate that.
    Mr. Chairman, I have other questions, but I know that we 
have a vote at 10:30 a.m., and I see that Senator Conrad is 
here. So I will submit the rest of my questions to the 
witnesses later.
    The Chairman. Senator Murkowski, thank you very much.
    Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    Thanks to all the witnesses for being here.
    Perhaps it is best to direct these questions to Mr. Cason, 
but you tell me who is the best to respond from your team. I 
look at the President's budget that has been sent up for Indian 
Affairs, $2.23 billion. I notice that that is a $7-million 
increase over his 2007 request. Have you done an analysis of 
how much money would be required to just stay even with 2007?
    Mr. Cason. No; not in that way.
    Senator Conrad. Do you have some rough estimate? I assume 
if we were at basically the same level of funding in 2007, 
$2.23 billion, to actually deliver the same services would 
require at least an inflation adjustment, and with the large 
amount of money that is involved in health care, you would have 
to have more than an inflation adjustment just to stay even.
    So would I be wrong in assuming you would have to have 
roughly $90 million in addition just to stay even?
    Mr. Cason. Senator, as I am sure you know, we don't 
construct our budgets that way. I am certain that there are a 
lot of ways you could go about constructing numbers.
    Senator Conrad. There is a CBO baseline. What does the CBO 
baseline indicate would be required?
    Mr. Cason. Again, as you know, we don't construct our 
budgets that way. We take a look at what we think our 
requirements are. We prioritize them and we interface between 
our agency budget office, departmental budget office, OMB, and 
appropriations committees.
    Senator Conrad. I know exactly how it works. That is not my 
question. My question, I am trying to find out how much money 
it would take to deliver the same services that were delivered 
in 2007. It is obviously not the same amount of money this 
year. Year 2008 cannot be the same.
    Mr. Cason. Well, we did not approach our budget that way, 
Senator. We basically----
    Senator Conrad. I got that message. Tell me, I have a 
question I am trying to get answered here. You don't seem to 
want to answer it.
    Mr. Cason. I didn't do that calculation, Senator.
    Senator Conrad. Well, I can do the calculation. I can 
figure out it has to be about $90 million, and the President 
has $1 million, $7 million above his 2007 request; $1 million 
below the 2007 CR. Isn't that right? Isn't what he has here $1 
million below the 2007 CR?
    Mr. Cason. Well, Senator, after four answers on this, maybe 
I could share this with the panel. [Laughter.]
    Senator Conrad. Well, this question is very simple. How 
much was in the continuing resolution? How much is in the 
President's budget? That is just a fact question. Can you tell 
me that?
    Mr. Cason. I am not clear as to where we are with the 
continuing resolution. So I don't think that number----
    Senator Conrad. I am told that for 2008 what the President 
is asking for is $1 million less than it is in the 2007 
continuing resolution. Does that sound about right?
    Mr. Cason. That sounds about right, yes.
    Senator Conrad. So what the President has here is in real 
terms a significant cut. That is the point. It is just as clear 
as it can be that that is the case.
    Tribal colleges, who is the best person to be able to 
answer?
    Mr. Cason. That is probably mine as well.
    Senator Conrad. Well, good. [Laughter.]
    Mr. Cason. I would be willing to share with Catherine. 
[Laughter.]
    Senator Conrad. You didn't do so well on the first five 
questions. Here is the bonus question.
    Mr. Cason. Thank you. [Laughter.]
    Senator Conrad. Tribal colleges, $54.7 million. Is that 
more than, equal to, or less than what tribal colleges got last 
year?
    Mr. Cason. As I recall, our tribal college budget is 
relatively flat.
    Senator Conrad. So the answer to that question would be 
``the same as.''
    Mr. Cason. The same as.
    Senator Conrad. The same as, but in real terms, of course, 
that means it is a cut, because there is a thing called 
inflation.
    Okay, so we have established that this budget is another 
one of these budgets that is just detached from reality.
    How much did you ask for from the Office of Management and 
Budget? What was your request that you submitted?
    Mr. Cason. Senator, the Administration's position has been 
announced.
    Senator Conrad. I am asking, when you went, the way it 
works, and we all know how it works. You go to the Office of 
Management and Budget and you ask for a certain amount of money 
to do the things that you believe are necessary to do. And then 
they make a decision. We know that. And we know there is a 
difference between what you ask for. Was there a difference?
    Mr. Cason. Yes.
    Senator Conrad. Can you tell us how much the difference 
was?
    Mr. Cason. No.
    Senator Conrad. And why can't you tell us? You know what 
you asked for.
    Mr. Cason. It is my understand that that is considered an 
internal deliberation within the Administration as to a 
process, as you know, Senator. The bureau formulates its 
budget. It goes to the Department. The Department passes a 
budget request to OMB. We get a pass-back and there is a 
dickering process in there. So as I understand it, that is 
considered an Administrative deliberative process.
    Senator Conrad. So you can't tell us what you asked for?
    Mr. Cason. No.
    Senator Conrad. But it is fair to say you asked for more 
than you got.
    Mr. Cason. It is fair to say that we had a lot of 
discussion about my budget.
    Senator Conrad. Yes; did you ask for a lot more than you 
got? [Laughter.]
    Mr. Cason. Well, it was----
    Senator Conrad. Let me just say, the last person I asked 
these questions of was promptly fired because they actually 
answered the questions. [Laughter.]
    Mr. Cason. I am aware of that. [Laughter.]
    Senator Conrad. You know, there is something wrong with 
this hearing process, Mr. Chairman.
    The Chairman. Senator Conrad, before you came, I pointed 
out that were they to come and tell us their personal views of 
the President's budget, they would next appear as a private 
citizen. They understand that. They are here to support the 
President's budget. But I have been trying for 4 years to get 
Dr. Grim to tell me how much he asks for for Indian Health 
Service because it is so dramatically underfunded. I have yet 
to penetrate the uniform and the resolve of Dr. Grim. 
[Laughter.]
    Senator Conrad. I am so glad that you mentioned Dr. Grim, 
because he was the next person I was going to turn to. Dr. 
Grim, could you tell us how much money is in the President's 
budget for your function, the health function?
    Mr. Grim. Yes; I can. Actually, it is a very good budget, 
Senator Conrad.
    Senator Conrad. You actually got an increase.
    Mr. Grim. We got a $212-million increase.
    Senator Conrad. In percentage terms, how much would that 
be?
    Mr. Grim. Over the fiscal year 2007 CR level, it was a 7-
percent increase.
    Senator Conrad. Yes; that is my understanding. How much 
more did you ask for?
    Mr. Grim. I can give you the specifics of what we asked 
for. We asked for some funds to restore the base to a 2007 
level that was more consistent with the President's budget. We 
did ask for $40 million in Federal and tribal pay raise costs; 
$51 million for health care inflation at 4.2 percent, and non- 
medical inflation at 2.4 percent. We also asked for population 
growth at 36 million. Our population has been growing at about 
1.4 percent to 1.6 percent a year, and so have our service 
coverage population. So we have actually been increasing the 
number of people that we see each year. That recognizes that 
fact and gives us some funds to be able to cover that increased 
service population.
    Then we asked for about $19 million for staffing of two new 
facilities that are going to be coming on-line.
    So the total overall was a very positive budget, $212 
million over fiscal year 2007 CR.
    Senator Conrad. Is that what you asked for in the budget 
process? Was that your initial request?
    Mr. Grim. It was very consistent with what we asked for, 
Senator Conrad.
    Senator Conrad. Did you ask for more?
    Mr. Grim. I would point out my perspective being very 
different from the President's. I am only responsible for this 
one program. The President is responsible for the entire 
budget. We have different perspectives. I was very, very 
pleased with the budget that the Indian Health Service ended up 
with after all deliberations.
    Senator Conrad. Let me just say this to you, that the truth 
is, and we all know the truth, the truth is these accounts are 
terribly underfunded. They have been for a long time. It really 
is shame on us. If you didn't ask for much more than that, 
shame on your, because you should ask for more than that 
because the truth is the need is far more than that. And shame 
on us if we don't do more than what the President has sent up 
here, because the President is not asking for enough. If there 
is one place where we have a responsibility, it is in the 
Indian community. I know that you believe that personally, and 
are committed to that.
    Let me just say it is really just wrong what we are doing 
in housing and health care. Tribal colleges, you know, I will 
just conclude on this note. There is no place that I have seen 
that is making more of a difference in the lives of people than 
at the tribal colleges. I have been at the graduations. I have 
seen the looks on the faces of the people graduating, a sense 
of accomplishment, a sense that they are advancing. I have seen 
the results.
    I have had so many tell me that this is a life-changing 
opportunity. They are flat-funded, when we already know tribal 
colleges are funded at a fraction of what we fund every other 
higher education community, whether it is the traditionally 
Black colleges or the schools that we have that are State and 
federally supported right across the board. Every single one of 
them has a much higher level of funding than tribal colleges.
    So Mr. Chairman, I just say to you, we have a tough order 
here. The President has sent up a budget that is not real. 
These people have been sent up here to live by it, and if they 
don't, they get fired. And that is an unfortunate commentary.
    I thank the Chairman, and I thank the witnesses.
    The Chairman. Senator, thank you very much.
    We have a vote that has started. I do have just two or 
three very quick questions. My intention would be to submit a 
list of questions to the witnesses. We have five additional 
witnesses. We have two votes, three votes. My expectation is 
that, well, at that point it will be about 11:10 p.m. before we 
reconvene to hear the final five witnesses.
    Let me ask Mr. Cason, how much is being spent on the Cobell 
litigation from the Federal Government's standpoint at this 
point?
    Mr. Cason. Mr. Chairman, it depends on what you add into 
it. We are spending on the order of, within the Department of 
the Interior, $60 million to $70 million a year recently on 
historical accounting activities and litigation support 
activities and other things.
    The Chairman. All right. Mr. Cason, you perhaps are the one 
to answer this question. With obesity and diabetes very serious 
problems, particularly among Indian youth, in the BIA schools 
do we have pop machines or soda machines and machines that 
dispense snack food?
    Mr. Cason. Mr. Chairman, it is my understanding that the 
new director of the Bureau of Indian Education, Tom Dowd, is 
actually doing a survey right now of all of our schools to find 
the answer to that question. We will get it to you.
    The Chairman. Would you get that to me, please?
    Mr. Cason. Yes.
    The Chairman. Dr. Grim, the reduction in construction, I 
understood your answer to my colleague, Senator Thomas, but I 
assumed you would grit you teeth when answering that question. 
Why reduce construction funding at a time when there is such an 
unbelievable need for construction in health care, and you 
said, well, it is to concentrate on service. The fact is, you 
know and I know that reducing the construction funding for 
critically needed health care facilities is just almost 
unbelievable.
    The other point is, the urban Indian programs, health care 
for urban Indians, you indicated that no study was done with 
respect to zeroing out that program, what the impact would be. 
My colleague Senator Thomas asked you, was there a study done, 
what the impact might be on urban Indians? And the answer was 
no.
    How on earth can the Administration recommend zeroing out a 
program without knowing the impact? It just doesn't make any 
sense to me. Again, I understand you have come up here to 
represent this budget, but whether it is construction for 
health care, elimination of the urban Indian programs, 
elimination of the Johnson-O'Malley Program, so many of these 
things, I don't think they are justifiable. I just don't.
    There is much more to say about it all, but we just have to 
do better. You have to support the President's budget. I 
understand that. You work for him. I also understand how it 
works. It goes through OMB. You won't tell us that, but Dr. 
Grim, if you didn't ask for much more money, you shouldn't be 
in the job you're in. I assume you asked for substantially more 
money than you are getting, because we are about 40 percent 
short of providing the health care responsibility that we are 
supposed to provide.
    So we have to do much, much better. I certainly agree with 
the comments from Senator Thomas about the urban program and 
the other issues.
    I am going to submit a list of question to all five of you. 
I appreciate your willingness to share your time with us this 
morning. Because we have three votes, I think it will be 11:10 
a.m. before we convene. I would like all five witnesses to be 
available and ready at that point. I would like them to think 
between now and then about how they will summarize their 
testimony for us as well. We have limited time. I thank you 
all.
    We are in recess until about 11:10 a.m.
    [Recess.]
    The Chairman. The hearing will reconvene. Let me apologize 
for the delay. We have had a couple of votes over in the 
Senate, and then there is just announced an 11:30 a.m. caucus. 
So things are changing with respect to the Senate floor, and I 
apologize that it has necessitated a delay.
    I am going to recognize five witnesses. My colleague, 
Senator Cantwell, will be here just prior to 12 o'clock to 
chair the final portion of this hearing.
    Let me thank all of the witnesses for coming. Your entire 
statements will be made a part of the record. Let me ask, if 
you would in the interest of brevity, summarize your testimony.
    First, I will call on Ivan Posey, the chairman of the 
Shoshone Business Council of the Wind River Reservation in the 
State of Wyoming. Mr. Posey, thank you for being here, and you 
may begin.

STATEMENT OF IVAN D. POSEY, CHAIRMAN, SHOSHONE BUSINESS COUNCIL 
                 OF THE WIND RIVER RESERVATION

    Mr. Posey. Good morning, Chairman. My name is Ivan Posey 
and I currently serve as the Chairman for the Eastern Shoshone 
Business Council and cochair for the Eastern Shoshone Northern 
Arapaho Business Council. We both share the 2.3 million-acre 
Wind River Indian Reservation in west-central Wyoming, which is 
the only reservation in the State. The reservation was 
established in the 1868 treaty between the Shoshone Tribe and 
the Federal Government.
    There are currently 3,900 Eastern Shoshone and 8,200 
Northern Arapaho tribal members. Over 50 percent of tribal 
members from both tribes are under the age of 30. The 
reservation is home to approximately 7,000 American Indians and 
9,000 non-Indians.
    First of all, I would like to thank the distinguished 
Senators on the committee, including our own Senator Craig 
Thomas, for allowing me to testify on funding issues related to 
the President's 2008 Federal budget. I am going to start my 
testimony with a statement regarding the President's budget for 
tribal programs in this manner. I have served the Shoshone 
Tribe for 11 years, and throughout that time I have had the 
opportunity to our Nation's capital to address the needs of 
tribal citizens and to share our positive contributions to our 
great country.
    It has become more challenging over the years to receive 
the funding needed to adequately address tribal needs. The 
President's 2008 budget remains in the same mold, with cuts to 
Indian education, health care and other tribal programs 
drastically, while completely eliminating other vital funding.
    For example, the Johnson-O'Malley Program, which many 
tribes utilize for language and traditional revitalization, has 
been completely eliminated from the budget. This would affect 
our school systems and Head Start programs that rely on its 
funding to assist tribal efforts to continue educating our 
youth in their heritage. With the passing of many of our 
elders, this process becomes more important to our tribal 
communities.
    Cuts to other education matters such as construction and 
grant assistance need to be increased, as well as the need for 
increased funding to tribal colleges, which are all vital to 
the citizens of tribal nations.
    Cuts to our tribal court systems would drastically affect 
the administration of justice in Indian country, which in some 
cases is already underfunded. The tribal court system serves as 
the backbone of our sovereignty and needs adequate funding. 
Without a strong and reputable tribal court system, tribes will 
face the scrutiny and criticism from Indians and non-Indians 
alike on the credibility of our administration of tribal laws 
and codes. With the gains made in Indian country to establish 
and manage tribal courts, we cannot afford to continue to make 
progress in this very important area.
    Law enforcement remains a top priority in terms of public 
safety for Indian country. On the Wind River Indian 
Reservation, we currently have 10 officers to patrol roughly 
3,500 square miles. We need more uniformed patrolmen to 
continue to provide safety to our communities and address the 
problems of substance and drug abuse. Additional funding is 
also needed for tribal fish and game programs, which oversee 
our natural resources and provides assistance to our law 
enforcement agencies when needed. Currently, the Shoshone Tribe 
employs five full-time fish and game officers, which are funded 
directly from tribal funds.
    The need for adequate housing in Indian country continues 
to grow. Although there has been progress in Indian country in 
addressing this matter over the past years, we still have a 
ways to go. Through tax credits and utilization of the 184 
program, some needs are being met on and off reservations, but 
the need continues with the growth of young families and the 
need to sometimes restore and rebuild aging infrastructure. The 
elimination of the Housing Improvement Program in the 
President's budget would be very harmful to tribes who utilize 
the funding to renovate elderly and handicapped homes, and at 
times provide homes to tribal people in need.
    There are many issues in the area of health care that I 
would like to address. Regarding the need for additional 
funding for IHS, there are three areas that are of importance 
to tribal citizens. The first is the need for additional 
funding for contract health services. Contract health services 
allows for immediate care for those in medical crisis. Over the 
past few years, these costs have not kept up with the rate of 
inflation and have basically remained flat budgets. Tribal 
governments such as outs on the Wind River Reservation are 
currently covering costs associated with the inadequate funding 
the IHS currently receives.
    To receive contract health services, a person needs to be 
in a life-or-death situation. For example, a person may be in a 
car accident due to substance abuse and receive injuries which 
threaten their life. This one-car accident in itself may cost 
the local service unit $400,000 out of a $1.3-million budget. 
In the meantime, a person needing a knee replacement for 
several years will be denied services. Many emergency room 
visits are not paid by the IHS, which eventually falls on a 
patient who may not have the means to pay and is soon turned 
into collection agencies. This has affected many tribal members 
who may wish to finance homes through Federal programs such as 
the 184 program offered through HUD.
    Substance abuse and diabetes continue to rise in Indian 
country. Methamphetamine use has a tremendous negative affect 
on our community and resources are needed on the law 
enforcement, prevention, and treatment areas to address this 
devastating drug. Innovative programming that deals with family 
intervention and after-care support are critical to the 
recovery and well being of individuals who seek help. Access to 
treatment in Indian country is also a barrier at times when 
family involvement is needed. Regional treatment centers are 
needed across the country that will assist tribes to provide 
their citizens with better access and support.
    Diabetes is an area in which many tribal people are 
affected. Many young people are now being diagnosed with this 
disease that used to mostly affect adults. Funding to Indian 
country over the past years have allowed tribes like ours to 
develop tribal gyms and to promote healthy eating and exercise 
in our communities. Although there continues to be a rise in 
diabetes, I feel funding to tribes has helped curb some of 
these numbers for the better.
    With the continued cuts to health care in Indian country, I 
would ask members of Congress from both parties and 
Independents, to continue to address the reform of the health 
care system in this country. The rising cost of pharmaceuticals 
and the lack of access to health care in many communities has 
placed this country in a crisis mode. For tribal nations to 
continue to look after the needs of its citizens' health care, 
I firmly believe these issues need to be addressed. Corporate 
greed continues to have priority over the well being of our 
Nation's citizens. Tribal governments, as well as State and 
other governments, are subject to this health care crisis.
    I would also ask the members of Congress to carefully 
evaluate the war in Iraq. With military spending up and a 
record deficit, the President's budget cuts domestic spending. 
Being an Army veteran, I understand the importance of serving 
our great country and responsibility of safeguarding our 
people. Tribal people have, and continue to serve in our armed 
forces at a rate higher than any other group in the United 
States. We have always answered the call. The cuts to the 
Veterans Administration are of concern to our tribal 
communities as well. As many veterans return from service, many 
need additional help. We would like our returning veterans to 
receive the care and respect they deserve.
    In closing, I would like to thank the committee on 
listening to my concerns as an elected official of my tribe. I 
am encouraged that many members of Congress acknowledge and 
respect the trust responsibility from the U.S. Government to 
Indian tribes. As we continue to defend our treaties and 
executive orders, we will also continue to defend this great 
country of ours.
    Thank you very much. God bless.
    [Prepared statement of Mr. Posey appears in appendix.]
    The Chairman. Chairman Posey, thank you very much. We 
appreciate your being with us.
    Next, we will hear from Jefferson Keel, who is Lieutenant 
Governor of the Chickasaw Nation. Mr. Keel, thank you very much 
for being with us today.
    I should also mention that Mr. Keel is the first vice 
president of the National Congress of American Indians as well.

  STATEMENT OF JEFFERSON KEEL, LIEUTENANT GOVERNOR, CHICKASAW 
NATION, AND FIRST VICE PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
                            INDIANS

    Mr. Keel. Thank you, Mr. Chairman, and good morning.
    My name is Jefferson Keel. I am the Lieutenant Governor of 
the Chickasaw Nation, and also serve as the first vice 
president of the National Congress of American Indians. I am 
honored to present testimony on behalf of the member nations of 
the National Congress regarding the President's fiscal year 
2008 budget.
    Last week, President Bush presented his moral choices for 
the country in his $2.9 trillion budget proposal. Tribal 
leaders, through consultation with various agencies and through 
NCAI convenings, have identified the following areas for 
meaningful Federal investment in Indian country: Public safety 
and justice; health care; education; and natural resources.
    However, NCAI would like to emphasize that although tribal 
leaders have developed the above priority areas for fiscal year 
2008, the unconditional underpinnings for all of the funding 
recommendations in this testimony are tribal self-determination 
and self-governance. NCAI's support for areas in the Federal 
budget that support self-determination and self-governance is 
uncompromising.
    Although tribal people in the United States have inherited 
the challenges stemming from centuries of unjust policies and 
broken agreements, a promising resurgence in self-government 
and self-determination has allowed tribes to flourish in ways 
unimaginable 50 years ago. When tribes are able to operate as 
governments responsible for their own people and resources, 
which is the essence of tribal sovereignty, the resulting 
achievements have led to reversing the poor conditions created 
by centuries of injustice.
    Accordingly, before addressing our various programmatic 
funding recommendations, we would like to call attention to the 
very alarming proposal for reductions to the very category at 
the BIA that directly supports tribal self-determination and 
represents Federal trust responsibilities to the tribes: That 
is, tribal priority allocations, or TPA.
    NCAI understands that the Administration and Congress must 
make difficult budget decisions this year, and support the most 
efficient and worthy programs in the Federal budget by taking 
into account efforts to reduce the national deficit. While 
tribes will advance the priorities detailed in this testimony, 
the priority initiatives cannot come at the expense of TPA. In 
the BIA budget request, TPA would be reduced by $20.5 million 
from the fiscal year 2007 continuing resolution amount, which 
constitutes the majority of the cuts proposed to the BIA.
    TPA has long been one of the most important funding areas 
for tribal governance, as they have the flexibility to use 
these funds to meet the unique needs of the individual tribal 
communities, making TPA the main resource for tribes to 
exercise their powers of self-governance. The current proposed 
reductions undermine the very self-determination policy that 
has driven Indian country's success in addressing long-enduring 
socio-economic disparities.
    Considering that this committee and the Administration 
expressly support a tribe's right to self-determination, NCAI 
hopes that the Federal budget will follow through with material 
support for these policies.
    We ask that several recommendations be taken closely to 
heart as the budget advances. First, public safety and justice 
are key concerns in the fiscal year 2008 budget. Tribal court 
systems frequently are overburdened due to lack of Federal 
funding. A recent front-page Wall Street Journal article 
highlighted some of the issues resulting from inadequate 
resources. The article illustrated how the laws to protect the 
rights of Indian people cannot be effectively enforced due to 
lack of funding. Any discussion of public safety in Indian 
country is inextricably tied to the strength of the tribal 
courts to maintain order in tribal communities.
    NCAI commends the Secretary of the Interior's departmental 
Safe Indian Communities Initiative to help Indian country 
reduce methamphetamine crime and the affliction it has brought 
to many tribes, which includes a $16-million increase for 
public safety programs at BIA. This initiative is congruent 
with the tribal leaders' priority to strengthen public safety 
and justice in Indian country. Essentially, tribal leaders are 
urging Congress to take a step toward reaching parity in 
funding tribal public safety programs at levels commensurate to 
non-tribal programs.
    The second priority is Indian health. As has already been 
discussed, poor health continues to inhibit the economic, 
educational, and social development in all of Indian country. 
American Indians receive life-or-limb service under current 
conditions, meaning funds are only available to treat the most 
life-threatening illnesses. NCAI urges Congress to fund IHS at 
a level to at least maintain existing health services and 
restore loss of buying power. We also oppose zeroing-out of the 
Urban Indian Health Program.
    The third priority is education. Although NCAI supports the 
Secretary's proposal to increase funding for the Bureau of 
Indian Education as part of an education initiative, many of 
the education programs supported by tribal leaders were 
eliminated or reduced in the fiscal year 2008 budget request, 
such as scholarships and adult education and the Johnson-
O'Malley Program proposed to be eliminated.
    And finally, the fourth area prioritized by tribal leaders 
is natural resources. Natural resource programs are of immense 
importance to tribal cultures, including resource development, 
fish and wildlife conservation, wetlands protection, and water 
resources. Protection of these resources forms an integral part 
of the Federal Indian trust responsibility. However, recent 
reductions are leading to the dismantling of both the tribes' 
abilities to manage their natural resources, and the Interior 
Secretary's trust responsibility to protect them.
    I would note, there is a $100-million proposal to celebrate 
the Park Service's 100-year anniversary. We would look at this 
as a source. We, tribal leaders and the Native Americans across 
this country, greatly support the parks, and we celebrate that 
every year and every day. But we look at that as a possible 
source to offset some of these reductions.
    Thank you for this opportunity for testimony. We look 
forward to working with this committee, with the goal of making 
Indian country, as well as the United States, strong.
    Thank you.
    [Prepared statement of Mr. Keel appears in appendix.]
    The Chairman. Mr. Keel, thank you very much for being here.
    Next, we will hear from Sally Smith. Sally Smith is the 
chair of the National Indian Health Board here in Washington, 
DC. She has appeared before this committee previously.
    Ms. Smith, thank you very much for being here. You may 
proceed.

 STATEMENT OF SALLY SMITH, CHAIR, NATIONAL INDIAN HEALTH BOARD

    Ms. Smith. Thank you very much.
    Good morning, Chairman Dorgan and Vice Chairman Thomas, and 
to the members of the Committee on Indian Affairs.
    The National Indian Health Board has been around since 
1972. We represent federally recognized American Indians and 
Alaska Natives as we advocate for better health care.
    The President's budget recommends increases in nearly every 
line item of the IHS budget request. However, although we note 
with appreciation that the fiscal year 2008 budget continues 
the Administration's slight trend of increase, when 
calculations of population growth are included as well as 
inflation, America's Native populations cannot maintain even 
the status quo under this budget.
    We recognize that there are many realities facing the 
Federal Government that create enormous fiscal challenges. 
America continues to be at war. However, you have heard that 
the American Indians have the highest per capita participation 
in the armed services of any ethnic group. No other segment of 
our population is more negatively impacted by health 
disparities. We suffer disproportionately higher rates of 
chronic disease.
    It is critical to realize that even the status quo for the 
American Indians and Alaska Natives health should not be 
acceptable to Congress. If your families had the type of health 
disparities that American Indians face, it would not be 
acceptable to you.
    We lag behind every group in America in most economic 
indicators, but we place number on in health disparities. In 
some cases such as the speed with which we acquire HIV and AIDS 
in certain age groups, and in infant mortality in the Northern 
Plains, we are first in the whole world. There are many health 
care funding priorities in Indian country. The health care 
needs are great and vary greatly from each area of Indian 
country.
    Each year, we hold budget consultations, and I know you are 
aware of these. What happens is a summary is created and those 
funding needs are then identified by the NIHB for particular 
attention. Chairman Buford Rolin has testified on diabetes in 
the past several days. You know that diabetes is epidemic in 
Indian country.
    Cancer continues to be a huge area that needs attention. 
The President's budget includes $2 million for building 
effective disease prevention and health promotion at the local 
level. That amount of funding is not sufficient to address 
these preventive-type services. Contact health services, in 
much discussion this morning, the budget includes a request for 
$570 million in contract health, which is a $53-million 
increase from 2006; a $49-million increase over the 2007 
continuing resolution.
    An increase of approximately $50 million to the contract 
health service line is not sufficient. It has been identified 
by the Northwest Portland Indian Health Board that $302 million 
is needed. It is not news to you that in some IHS areas it is 
not safe for Indian people to be sick after June 1 because the 
contract health service funding is no longer available.
    I urge that a June 1 fund needs to be established to meet 
the unmet health care needs in contract health services for 
American Indians and Alaska Natives.
    An important measure that will increase availability of CHS 
funds is the publication of the final regulations required by 
section 506 of the Medicare Modernization Act. Section 506 
requires that the Secretary of HHS develop by regulations 
``Medicare-like rates'' that Medicare participating hospitals 
would be required to accept as payment of full services 
provided under this program. Although the HHS published a 
proposed rule in April 2006, the Medicare-like rates do not 
become effective until a final regulation is published. We urge 
that the Secretary expedite publication of these regulations.
    Poor Health Funding, we recommend $100 million increase for 
the Well Indian Initiative, crafted to undertake disease 
prevention and health promotion in Indian country.
    Mr. Chairman, you discussed with the National Indian Health 
Board 2 weeks ago in the President's room at the Capitol, the 
need for innovative health care delivery systems to address the 
lack of after-hour health care needs in Indian country. We 
appreciate your leadership with proposing to develop a new 
health care delivery system in Indian country that are 
currently available to the general public. The National Indian 
Health Board supports your efforts.
    We also wish to work with you on seeking innovative ways 
and new funding mechanisms to develop health care services. 
This is going to cost money. We also need to talk about the 
funding aspect of it.
    There is a lot of talk on contract support costs. We are 
requesting an additional $90 million over the current request 
in order to assure that contract support cost obligations are 
met.
    Urban clinics, very quickly, we know that they have been 
zeroed out. We urge that tribal consultations take place before 
any policy decisions are made to close urban Indian clinics.
    With regard to the Indian Health Care Improvement Act, we 
urge introduction of the reauthorization bill.
    In conclusion, we respectfully request a financial and 
policy commitment from Congress to achieve true progress in 
changing the reality of health care disparities so familiar in 
Indian country.
    Thank you very much.
    [Prepared statement of Ms. Smith appears in appendix.]
    The Chairman. Ms. Smith, thank you very much. And thanks 
for the work that you have done over a long period of time 
dealing with these issues of Indian health.
    I am going to have to depart. It is necessary for me to be 
at the Capitol at 12 p.m. Vice Chairman Thomas, will continue 
the rest of the hearing.
    Let me introduce the next witness. Dr. Verlie Ann Malina-
Wright is going to talk to us. She is the president of the 
National Indian Education Association. Thank you for all of 
your work in these areas.
    Let me also apologize, I think the vice chairman would 
agree, for the brevity today. It does not reflect our 
seriousness of purpose on these issues. We apologize. There 
have been several votes and an intervening caucus. We are very 
interested and concerned in the testimony provided by the first 
panel and your panel especially. We appreciate the time you 
have taken to come to this committee.
    Dr. Malina-Wright, you may proceed.
    Vice Chairman Thomas, thank you very much for proceeding.

  STATEMENT OF VERLIE ANN MALINA-WRIGHT, PRESIDENT, NATIONAL 
                  INDIAN EDUCATION ASSOCIATION

    Ms. Malina-Wright. Aloha. My name is Dr. Malina-Wright. I 
am in my 40th year of education. I am a Native Hawaiian and the 
37th president of the National Indian Education Association. I 
will be paraphrasing a lot of my presentation, and I would like 
to submit for the record our legislative packet, and also 
supporting testimony on behalf of the Johnson-O'Malley Program.
    The key areas for funding that we want to focus on is the 
administration for Native Americans. This is the support for 
the Esther Martinez Native Languages Act. As you know, in 1992, 
the Native American Languages Act, [NALA] was instrumental in 
helping establish language immersion schools and language NES 
schools. This particular act extends the concept to include 
language restoration programs, and with no additional funding. 
We ask a $10-million increase in the ANA allocation to promote 
languages.
    At BIA, Department of the Interior, the funding of BIA's 
Johnson-O'Malley Program, and I would just like to highlight 
it, because the President zeroed out this budget. There are two 
members on the board of NIEA, Dr. Wilbur Gilbert had a son who 
benefitted from Johnson-O'Malley by a violin. That son now is a 
professor at the University of Illinois in Champaign-Urbana. He 
used the music, including classical guitar, and he has traveled 
all around the world because of this investment in children.
    On the board also is Robert Cook, an outstanding educator, 
and his son also has a violin and he is now the third chair of 
violin for South Dakota.
    Okay, so what we are trying to say is this Johnson-O'Malley 
invests in children and the return on investment in these 
children is extraordinary.
    The President zeroed out this program and we ask, please 
sir, to restore the funds. We ask that the funds be restored 
not only to $16.4 million, but also to increase the funding to 
$24 million.
    In the area of BIA school construction and repair, we 
request NIEA $106 million increase for Indian school 
construction and repairs. It is important that our children 
learn in safe learning and culturally responsive environments. 
The construction funds are sorely needed in order to take care 
of the backlog.
    Another area is in the tribal education departments, the 
TEDs, and the BIA. NIEA encourages $5 million for the TEDs at 
the BIA and $5 million at the Department of Education. It 
should be noted that TEDs work with tribal education programs 
and schools on the reservations. Perhaps when we talk about 
LEAs and SEAs, perhaps we should reconsider and also add TEAs.
    The Department of Education in title VII funding is an 
important area. I can share that NIEA requests $195.8 million 
for title VII, with a 5-percent increase over fiscal year 2007 
CR. As you know, the President's budget eliminated the Alaska 
Native Education Equity and the Native Hawaiian Education Act 
budgets. There are so many extraordinary things that have come 
out of title VII that are unique and independent of title I. I 
have a very interesting example that I can share with you. The 
vice principal of a Hawaiian language immersion school, where a 
K-12 and moving to a P-16. We used title I to make sure that 
our students master language and reading and math, both in 
English and Hawaiian. We also use title VII to take a look at 
architecture structures and software that we can put our 
Hawaiian language in, as our children are learning how to read 
and compute. It is extraordinary to see that the funding that 
takes place in title VII allows even our special education 
children to learn algebra II side-by-side with title I tutors 
and instruction through the Native Hawaiian language.
    The Impact Aid funding, this is such a critical area, again 
for schools and reservations where there is no traditional tax 
base. NIEA requests an increase of $85 million over fiscal year 
2007 CR level for Impact Aid.
    In higher education, this is an extraordinary area of 
tribal colleges of universities. This is an area where students 
are 34 years of age, who have never considered higher education 
for whatever reason. My father came from a family of 19, and 
was not a high school graduate, but he wanted his children to 
graduate from high school, and the two youngest ones were 
definitely going to go to college. I am happy to say as a 
result of the Education Professions Development Act and ECEA, 
in 1978, I got my doctorate at UCLA. I am here 40 years 
providing service, again advocating education for our children, 
their families and their communities.
    Thank you on behalf of all Native people.
    [Prepared statement of Ms. Malina-Wright appears in 
appendix.]
    Senator Thomas [presiding]. Thank you very much. Certainly, 
that is an important issue.
    Mr. Shuravloff.

  STATEMENT OF MARTY SHURAVLOFF, CHAIRMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Mr. Shuravloff. Thank you, Vice Chairman Thomas.
    My name is Marty Shuravloff. I am honored to appear before 
you today.
    As chairman of the National American Indian Housing 
Council, I have the privilege to represent the housing 
interests of more than 460 tribes and Alaska Native villages. 
The National American Indian Housing Council was founded in 
1974 to support and advocate for tribes and tribally designated 
housing entities. NAIHC assists tribes with their self-
determined goals of providing housing and community development 
for Indian people and Alaska Natives.
    I come to you today with NAIHC's thoughts on the 
Administration's fiscal year 2008 budget request. With billions 
of dollars in American taxpayer money flowing overseas, now 
more than ever is the time we prioritize the needs of America's 
neediest citizens; 1 in 10 Native American homes lack plumbing. 
One in five give Native Americans live in overcrowded homes. 
Nearly one-half of Native American homes are considered 
inadequate by all applicable standards. Less than one-half of 
all reservation homes are connected to public sewer.
    While we have heard it time and again, it bears repeating. 
The United States has its own places of third world conditions, 
in its own backyard. Indian people are consistently near the 
bottom of every indicator of health year after year. In a 
country proud of its democratic standards, we have whole 
nations of Indian people doing without.
    NAIHC's recommendations are as follows. For the Indian 
Housing Block Grant, the primary funding for Indian housing 
nationwide, the Administration has requested $627 million. 
While remaining level from the previous two appropriations 
cycles, this number does not take into account inflationary 
costs. For Federal funding to approach even 2002 levels, 
accounting for inflation, the minimum amount needed is $748 
million. The National American Indian Housing Council 
recommends that Indian Housing Block Grant be funded at this 
level for fiscal year 2008.
    For the Indian Community Development Block Grant, the 
Administration has requested $57.4 million. The National 
American Indian Housing Council recommends funding at $77 
million, a $19.6-million increase over previous-year funding.
    While not a specific Indian program, HUD's Rural Housing 
and Economic Development is one other tool Indian communities 
use to help build homes. That is zeroed out in the 
Administration's fiscal year 2008 budget. NAIHC recommends the 
continuation of funding for this invaluable program at $24 
million.
    The Direct Home Loan Program and the Rental Housing Direct 
Loan Program, all under USDA, are zeroed out in the 
Administration's budgetary requests. The cutting of these 
invaluable services will adversely affect Indian people 
nationwide living in rural areas. NAIHC recommends the 
continuation of funds for these beneficial programs as well.
    The NAIHC is the only national Indian-led organization 
providing guidance, technical assistance, training and related 
capacity-building services for Indian Housing Authorities and 
tribally designated housing entities. The NAIHC trains 
thousands of Indian housing and associated staff each year with 
a full range of programs and services. In fiscal year 2005 and 
2006, more than 5,000 Indian housing staff participated in our 
tuition-free training.
    The NAIHC was instrumental in shaping discussions and in 
helping to draft the Native American Housing Assistance and 
Self-Determination Act of 1996. Although great strides have 
been made since the act's inception, much more is necessary to 
make an even more powerful impact for Native people. The 
National American Indian Housing Council is vital to that goal.
    Section 703 of NAHASDA calls for the appropriations of 
funding for a national organization representing Native 
American housing interests to provide training and technical 
assistance to Indian Housing Authorities and tribally 
designated housing entities. We believe the National American 
Indian Housing Council is that organization. The Federal 
funding the NAIHC receives is not an earmark added to the 
appropriations cycle. The authorizing language of NAHASDA calls 
for the direct appropriation of funds for the purposes the 
NAIHC provides, separate from similar activities under HUD.
    Yet, in spite of positive outcomes like increases in Native 
home purchase loan originations, over the past couple of years 
NAIHC has been zeroed out in the fiscal year 2008 budget 
request. NAIHC recommends funding be restored to the council at 
$4.6 million in fiscal year 2008.
    Last, NAHASDA stressed the trust responsibility of the U.S. 
Government to Native American people. With the implementation 
of NAHASDA, the Federal Government recognized the uniqueness of 
the problems facing Indian communities. NAHASDA replaced 
confusing and scattered grant programs with one block grant 
that afforded tribes the flexibility to design housing unique 
to each Indian community's needs. It enabled tribes' 
unprecedented opportunities to use different sources of 
financing to meet housing needs in their communities.
    NAHASDA is scheduled to be reauthorized this year. The lack 
of significant private investment, functioning housing markets, 
and the dire economic conditions most Indian communities face 
mean that Federal dollars make up a significant amount of total 
housing resources for Native people. NAHASDA is integral to 
these resources and without the legislation specific to Indian 
communities, there would be few options left to house America's 
neediest citizens. We respectfully request for this Act's 
reauthorization and this committee's support for it in the 
Senate.
    In conclusion, I would like to thank you, Vice Chairman 
Thomas, and the rest of the Committee, for your continuing 
support of Indian people. The National American Indian Housing 
Council is eager to work with the committee on all the issues 
affecting Indian housing programs, no matter how difficult. 
Together, we can achieve better housing and a brighter future 
for America's first citizens.
    Thank you.
    [Prepared statement of Mr. Shuravloff appears in appendix.]
    Senator Thomas. I thank all of you very much for being 
here. I know we are running a little late. Some of you look 
like you are a little hungry, so just a couple of very short 
questions.
    Chairman Posey, I again appreciate your being here from 
Wyoming. I see the Indian Economic Development Programs are 
dispersed among several agencies, HUD and Commerce. What has 
your tribal experience been with these agencies? Have they been 
of assistance to you?
    Mr. Posey. Of very little assistance, in my opinion, over 
the last few years. You know, there is additional money through 
the State. We are one of the few States in the Nation that have 
had billion dollar surpluses over the last few years, as you 
know, Senator. Some of the access to those funds have been hard 
to come by, although there is funding there.
    Senator Thomas. I see. Okay, thank you.
    Mr. Keel, the Department of Energy was directed to 
establish an Office of Indian Energy Policy and Programs, and 
establish the DOE Indian Energy Loan Guarantee Program, but it 
has not. In your opinion, what energy development opportunities 
are being missed by not having that office?
    Mr. Keel. Senator, any opportunity for the tribal 
governments to interact with Federal agencies in developing 
energy opportunities, whether it be in wind power or 
hydroelectric or whatever, the tribal governments are major 
players and can be major players in the design and production 
of energy, particularly on Federal lands.
    So I think it is an opportunity that is being missed, when 
those opportunities are not enacted and not established.
    Senator Thomas. Thank you all very much. I know we have 
stretched this out a long time, and the voting kind of 
interrupts our work around here, but we have to do that.
    So thank you all. We look forward to working with you. This 
budget is going to be very important to all of us, and we will 
be working on it.
    With that, we will adjourn the meeting.
    Thank you.
    [Whereupon, at 12:10 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Charles W. Grim, D.D.S., M.H.S.A., Assistant 
            Surgeon General Director, Indian Health Service

    Mr. Chairman and members of the committee:
    Good Morning. I am Dr. Charles W. Grim, director of the Indian 
Health Service . Today I am accompanied by Robert McSwain, deputy 
director of the IHS, Dr. Douglas Peter, acting chief medical officer, 
and Gary Hartz, director, Environmental Health and Engineering. We are 
pleased to have the opportunity to testify on the President's fiscal 
year 2008 budget request for the Indian Health Service.
    The IHS is the Federal agency responsible for delivering health 
services to more than 1.9 million American Indians and Alaska Natives. 
In carrying out this responsibility, the IHS maintains a unique 
relationship with more than 560 sovereign tribal governments that 
represent this service population in some of the most remote and harsh 
environments within the United States as well as in modern metropolitan 
locations such as Anchorage and Phoenix. These relationships and the 
geographic diversity offer extraordinary opportunities and challenges 
to managing and delivering health services.
    The IHS and tribal programs provide a comprehensive scope of 
individual and public health services, including preventive, clinical, 
and environmental health services. In addition, the IHS and tribal 
health programs purchase medical care and urgent health services 
through the Contract Health Services program, when the care is 
otherwise not available at their facilities. For all of the American 
Indians and Alaska Natives served by these programs, the IHS is 
committed to its mission to raise their physical, mental, social, and 
spiritual health to the highest level.
    This mission is supported by the Department of Health and Human 
Services [HHS], as reflected in the many partnerships we have 
established with other HHS operating divisions and the Department's 
commitment to its Intradepartmental Council on Native American Affairs 
[ICNAA]. I have the pleasure of serving as the vice-chair of the ICNAA 
whose role is to assure coordination across HHS in support of American 
Indian, Alaska Native, and Native American health and human services 
issues. The Administration takes seriously its commitment to honor the 
unique legal relationship with, and responsibility to, eligible 
American Indians and Alaska Natives by providing effective health care 
services.
    Through the government's longstanding support of Indian health 
care, the IHS, in partnership with the people we serve, has 
demonstrated the ability to effectively utilize available resources to 
improve the health status of American Indians and Alaska Natives. The 
clearest example of this is the drop in mortality rates over the past 
few decades. More recently, this effectiveness has been demonstrated by 
the programs' success in achieving their annual performance targets as 
well as by the intermediate outcomes of the Special Diabetes Program 
for Indians. For example, in fiscal year 2006 the IHS Tribal, and Urban 
programs increased the proportion of diabetic patients assessed for 
kidney disease by 17 percent and increased the proportion of diabetic 
patients with ideal blood sugar control by 3 percent. Early 
identification of kidney disease and keeping blood sugar at the ideal 
level are significant in preventing or delaying the onset of diabetic 
complications, which may require costly care such as dialysis or renal 
transplant.
    Although we are very pleased with these achievements, we recognize 
that there is still progress to be made. American Indian and Alaska 
Native mortality rates for alcoholism, cervical cancer, motor vehicle 
crashes, diabetes, unintentional injuries, homicide, and suicide 
continue to be higher than the mortality rates for other Americans. 
Many of the health problems contributing to these higher mortality 
rates are behavioral. For example, the rate of violence for American 
Indian and Alaska Native youth aged 12-17 is 65 percent greater than 
the national rate for youth. And while diabetes is a major focus of 
prevention and treatment efforts across Indian country, the prevalence 
is still growing and occurring in an increasingly younger population.
    The IHS and our stakeholders remain resolved and deeply committed 
to address these disparities. We are joined in the implementation of 
three health initiatives I launched in fiscal year 2005 with the 
specific intent of achieving positive improvements in these areas of 
preventable health problems. The Health Promotion/ Disease Prevention, 
Behavioral Health, and Chronic Care Initiatives target underlying risk 
factors for morbidity and mortality as well as the re-engineering of 
the IHS and Tribal Indian health delivery system to incorporate the 
best practices documented in the scientific literature. Collaborations 
with other Federal agencies, States, and foundations are also integral 
components of each Initiative.
    I am pleased to present a budget request to you that allows the IHS 
to continue these efforts and address needs expressed by tribes. As 
partners with the IHS in delivering needed health care to American 
Indians and Alaska Natives, tribal leaders and health program 
representatives participate in an extensive consultation process on the 
IHS budget. In addition, the Department holds annual budget 
consultation sessions, both regionally and nationally, to give Indian 
Tribes opportunities to present their budget priorities and 
recommendations to the Department. I am pleased to say that this budget 
addresses health care needs that the tribes have emphasized as critical 
by including the increases necessary to assure that the current level 
of services for American Indians and Alaska Natives is maintained in 
fiscal year 2008 and that additional services associated with the 
growing American Indian and Alaska Native population are covered.
    The President's budget request for the IHS totals $4.1 billion, a 
net increase of $212 million or 7 percent above the annualized fiscal 
year 2007 Continuing Resolution funding level and an increase of $101 
million over the fiscal year 2007 President's Budget. In comparison, 
the overall discretionary budget request for HHS is an increase of $95 
million or .1 percent over the fiscal year 2007 Continuing Resolution 
funding level. The request will allow IHS and tribal health programs to 
maintain access to health care by providing $41 million to fund pay 
raises for Federal and tribal employees, and $88 million to cover 
increases in the cost of delivering health care and to address the 
growing American Indian and Alaska Native population. Staffing and 
operating costs for two newly constructed health facilities are also 
included in the amount of $19 million. One of these facilities is the 
Muskogee Health Center in Oklahoma. The Cherokee Nation funded the 
construction of the Health Center under a joint Venture agreement and 
now IHS is requesting funds to staff and operate it. The other facility 
is a Youth Regional Treatment Center [YRTC] located in Wadsworth, NV. 
This YRTC will provide short-term, structured transitional living 
services to adolescents with alcohol and/or substance abuse addiction. 
The budget request also includes additional funding of $64 million to 
restore program losses that would be experienced under the annualized 
fiscal year 2007 Continuing Resolution, which did not include increases 
necessary to maintain service levels.
    To target these priority increases, the budget request eliminates 
funding for the Urban Indian Health Programs, which is $33 million at 
the fiscal year 2007 CR level, and reduces funding for the Facilities 
Appropriation by $24 million. The focus of the President's budget 
request for IHS is on provision of health care services and ensuring 
that the basic needs of all IHS and tribal health programs are met. 
Therefore, the budget request targets additional funding for the 
provision of health care on or near Indian reservations in order to 
serve a population who cannot readily access health care from outside 
the IHS or tribal system. The request for Health Care Facilities 
Construction is $12.7 million, to continue the construction of the 
Barrow, Alaska Hospital. Consistent across HHS, facilities funding 
requests are focused on maintaining existing facilities and completing 
projects that received initial funding in previous years.
    The proposed budget that I have just described provides a continued 
investment in the maintenance and support of the IHS and tribal public 
health system to provide access to high quality medical and preventive 
services as a means of improving health status. It reflects a continued 
Federal commitment to American Indians and Alaska Natives.
    Thank you for this opportunity to present the President's fiscal 
year 2008 budget request for the IHS. We are pleased to answer any 
questions that you may have.
                                 ______
                                 

Prepared Statement of Carla Mann, member, Blackfeet Tribe, representing 
               the National Johnson-O'Malley Association

    Good afternoon. I would like to thank the distinguished Chairman 
Dorgan, Vice Chairman Thomas, and members of the Senate Committee on 
Indian Affairs for holding this hearing regarding the President's 
recommendation for the 2008 Budget.
    On behalf of over 350,000 American Indian children attending our 
Nation's public schools, I thank the committee for this opportunity to 
provide testimony on education issues that directly impact our public 
school administrators' ability to sustain a high quality education for 
Native American students attending their schools. I am honored to be 
here. My name is Carla Mann. I am a member of the Blackfeet Tribe 
representing the National Johnson-O'Malley Association [NJOMA] who is 
the elected voice and liaison to Congress for Johnson-O'Malley Programs 
[JOM]. As Vice Chairman Thomas knows, I live and work on the Wind River 
Reservation in Wyoming. I thank him for his support.
    In his 2008 budget recommendations, the President has recommended 
that the JOM funding be eliminated. We respectfully request that in its 
Views and Estimates, the committee reject that recommendation.

JOM is a program critical to our Indian students in public schools.

    Over 75 years ago Congress recognized the inherent right of all 
Indian students to receive a high quality education by passing the 
Johnson-O'Malley Act. The act is a cornerstone for Indian communities. 
It helps our communities meet the unique and specialized educational 
needs of Native students who attend public schools. Many of our 
students live in remote and rural areas in high rates of poverty and 
unemployment. JOM is responsive to the special circumstances of Indian 
Country and provides funding that helps students stay in school and 
achieve academic success.
    JOM is a unique program that helps Indian students become 
productive members of their community. For example, JOM provides 
students with academic enhancing services and items including 
culturally based tutoring, school supplies, summer school, scholastic 
testing fees, financial aid counseling, athletic equipment and 
activities, caps and gowns, accelerated college preparation classes, 
writing competitions, etc. Other programs administered by the Federal 
Government, such as the No Child Left Behind Act do not allow funding 
for these types of activities and necessary items.

JOM funds impact the schools that serve the most tribal students.

    In 2004-05, a Department of the Interior report stated that the 
Bureau of Indian Affairs [BIA] provides an education to Indian children 
on federally recognized Indian reservations in 170 elementary and 
secondary schools across 23 States. Approximately 46,000 or about 7 
percent of all Indian children attend elementary and secondary schools 
administered by the BIA. By eliminating JOM funding, the 2008 budget 
recommendation ignores the special needs of the other 93 percent of all 
Indian students that attend public school.

The justification used in the 2008 budget recommendations is unfounded.

    For the past 2 years, and again in fiscal year 2008, the Department 
of the Interior and the Administration has requested severe reductions 
or elimination of funding of the JOM Program. The President's fiscal 
year 2008 budget request proposes ``zero'' funding using the same 
justification, as used in the President's 2006 budget request, in that 
the JOM program is ``duplicative'' of other Federal programs. In fiscal 
year 2006, the Interior Appropriations Committees determined that this 
justification was ``unfounded.'' BIA indicates that the Department of 
Education's Title VII Indian Education Act programs is ``a similar 
funding'' source of Indian Education. NJOM firmly believes that the 
programs are very different. First, the title VII program is run 
directly through the school districts and is not subject to tribal 
control. The tribes have no actual authority over the design, or 
implementation of the title VII program.

JOM is the only federally funded program that statutorily grants 
    ``vested authority.''

    Another important distinction, is the degree of influence JOM 
affords parents and communities. Under the JOM regulations, the parents 
of eligible JOM students have ``fully vested authority'' to design and 
implement their JOM programs. By regulation, the JOM programs are based 
on community needs assessment and not the needs of the school district 
and serve a much broader range of needs and services. The JOM program 
is the only federally funding program that allows for student, parent 
and community involvement in meeting their educational needs which is 
both academically and culturally based.

Restore the JOM funding.

    For fiscal year, the National Johnson-O'Malley Association, along 
with the National Indian Education Association urges Congress to 
continue its 75 year old commitment to Indian children by not only 
restoring JOM [$16.4 million] but increasing its funding to the fiscal 
year 94 funding level of $24 million.
    In conclusion, I'd like to thank you for allowing the NJOMA to 
present testimony on such an important program impacting our Indian 
students and communities.
                                 ______
                                 

  Prepared Statement of Myra Pearson, Chairwoman, Spirit Lake Nation, 
                            Fort Totten, ND

    Good afternoon Chairman Dorgan [D-ND] and Vice Chairman Thomas [R-
WY)] and distinguished members of the Senate Committee on Indian 
Affairs. Thank you for inviting the North Dakota tribal chairs to 
provide testimony on behalf of our respective nations. My name is Myra 
Pearson. I am an enrolled Dakota of the Spirit Lake Nation and serve as 
the presiding chairwoman for the tribe. Our administrative headquarters 
is in the Fort Totten District of the reservation. We are located in 
rural northeast North Dakota and many of our issues are related to the 
isolation of our communities.
    The numerous disparities experienced by our people call out for the 
Nation to respond and fulfill the trust responsibilities to our tribal 
nations. Spirit Lake tribal leadership is also obligated to our 
constituents to ensure provisions of the 1867 Treaty between the 
Sioux--Sisseton and Wahpeton Bands and the United States are upheld. 
The provision of health, education, housing, and welfare are critical 
to this effort and we look forward to working with this Congress to 
address these disparities.
    The inadequate and delayed funding to address the above mentioned 
provisions creates additional hardships on a population already 
distressed by poverty and the resulting social and physical ills noted 
in the statistics below.
    Spirit Lake adults [18+] were:

  <bullet> \\\\\\59 percent less likely to have health coverage.
  <bullet> \\\\\\52 percent less likely to have a personal doctor.
  <bullet> \\\\\\193 percent more likely to smoke.
  <bullet> \\\\\\97 percent more likely to binge drink [5+ drinks on 
        same occasion].
  <bullet> \\\\\\And, 288 percent more likely to chronic drink [2+ 
        drinks on daily basis].
  <bullet> \\\\\\73 percent more likely to have diabetes

    Regarding chronic disease, Spirit Lake elders (55+) were:

  <bullet> \\\\\\44 percent more likely to have arthritis.
  <bullet> \\\\\\90 percent more likely to have congestive heart 
        failure.
  <bullet> \\\\\\26 percent more likely to have experienced a stroke.
  <bullet> \\\\\\206 percent more likely to have diabetes.
  <bullet> \\\\\\375 percent more likely to have colon/rectal cancer.

    The Aberdeen Area Indian Health Service Region, of which North 
Dakota is a part, has the lowest life expectancy of all the IHS Regions 
in the Nation at 64.3 years of age compared to 77.6 years of age for 
the Nation, a difference of 13.3 years. This disparity is partially a 
result of the rural isolation of the community, shortage of health 
providers, and increasing poverty levels common among our people.
    The Spirit Lake Tribe continues to subsidize the health care of our 
tribal members due to inadequate provision of IHS funding to our tribe. 
We were disappointed to hear the Indian Healthcare Improvement Act was 
halted in December 2006 and we request you continue your efforts to get 
this legislation reauthorized or an alternative source to fulfill the 
treaty obligations to our people. Millions of acres of land were ceded 
to the United States in exchange for the provision of health, 
education, welfare, and materials for houses and these provisions have 
never been provided at the appropriate levels needed to meet the needs 
of our people.
    Our children continue to test below their North Dakota 
counterparts, and increased funding is needed to provide a firm 
educational foundation for our children. Tribal college students are 
funded at one-half of what non-tribal community college students 
receive at $4,447 per full time student, 75 percent of what is 
authorized and tribal colleges are not reimbursed for providing 
educational services to non-Natives.
    Regarding education, Spirit Lake members were:

  <bullet> \\\\\\215 percent more likely to have not obtained a high 
        school diploma.
  <bullet> \\\\\\29 percent less likely to have some college.
  <bullet> \\\\\\71 percent less likely to be a college graduate.

    A housing shortage at Spirit Lake is denoted by the 239 families 
currently on our housing waiting list. In most cases, overcrowding is 
occurring with multiple families residing in homes built for single 
families. Recent flooding on our reservation and the resulting high 
water table has also caused mold problems that have raised additional 
health concerns regarding asthma and other respiratory diseases. Last, 
substandard housing weatherization has resulted in increased heating 
bill costs that are severely affecting our tribal member's ability to 
make ends meet.
    The correlation between health status, education levels, and socio-
economic status is well documented. Thus, the issue of education is 
critical to raising the health status and overall income for our 
people. By raising education levels, we not only increase earning 
capacity and one's ability to access health insurance and healthcare, 
but we also increase the amount of taxes paid into our Federal 
Government and the family's ability to address their housing needs.
    The BIA is mandated by Federal law to provide accurate population 
estimates to the national office. Because Federal funding is based on 
reservation residents, BIA must supply correct information to everyone 
concerned at the tribal, regional, and national level. Increased 
communication and tribal input for Federal programs such as BIA and IHS 
are required to ensure not only population estimates are accurate, but 
also trust responsibilities are being met.
    At Spirit Lake, the tribal council has requested the superintendent 
of the Fort Totten Agency to increase our population data from an 
estimated 4,000 enrolled members to the accurate count of 6,128. The 
request has not been addressed to date and we are at a loss to 
understand why.
    The BIA and IHS are merely liaisons between the United States and 
our tribal nations; however, they continue to conduct business using a 
top down method that fails to recognize tribal sovereignty. This way of 
conducting is not acceptable and has been antiquated since the 
beginning of treaties with the tribes.
    The elimination of programs in the 2008 President's budget 
regarding Housing Improvement Program [HIP], Community Development, 
Indian Guaranteed Loan Program, Technical Work Experience Program and 
the continued reduction of all remaining tribal programs such as tribal 
courts and similar programs. The halting of the Indian Healthcare 
Improvement Act is unacceptable to the tribal nations considering this 
is the primary means for the United States to fulfill the trust 
responsibility to the tribes. The above mentioned health disparities 
are indicators of the dire need for educational, health, housing, and 
welfare initiatives for the tribes.
    The conceived notion regarding welfare is that tribes are looking 
for a handout; however, the welfare mentioned in the treaty is 
reflective of the overall wellbeing of the people. Our request is not 
to provide a handout to our people, but to fulfill the federally 
obligated trust responsibility to the Native people and to the Spirit 
Lake Nation.
    Summarily, all of the above mentioned issues are critical and of 
priority to the Spirit Lake Nation. We recognize the importance of 
applied research in developing plans of action; however, we also 
recognize our culture and community expertise must be implemented if 
these efforts are to be successful. We are open to working with your 
committee to move forward in the effort of addressing the disparities 
being experienced across Indian country. Furthermore, we applaud your 
efforts to reach out to the North Dakota tribes to get a better picture 
of our needs.
                                 ______
                                 

    Prepared Statement of Ivan D. Posey, Chairman, Eastern Shoshone 
                            Business Council

    Good morning. My name is Ivan Posey and I currently serve as the 
chairman for the Eastern Shoshone Business Council and cochair for the 
Eastern Shoshone and Northern Arapaho Joint Business Council. We both 
share the 2.3 million acre Wind River Indian Reservation in west 
central Wyoming which is the only reservation in the State. The 
reservation was established in the 1868 treaty between the Shoshone 
Tribe and the Federal Government.
    There are currently 3,900 Eastern Shoshone and 8,200 Northern 
Arapaho tribal members. Over 50 percent of tribal members from both 
tribes are under the age of 30. The reservation is home to 
approximately 7,000 American Indians and 9,000 non-Indians.
    First of all I would to thank the distinguished Senators on the 
committee, including our own Senator Craig Thomas, for allowing me to 
testify on funding issues related to the President's 2008 Federal 
budget.
    Let me start my testimony with a statement regarding the 
President's budget for tribal programs in this manner. I have served 
the Eastern Shoshone Tribe for 11 years and throughout that time have 
had the opportunity to travel to our Nations Capitol to address the 
needs of tribal citizens and to share our positive contributions to our 
great country. It has become more challenging over the years to receive 
the funding needed to adequately address tribal needs.
    The President's fiscal year 2008 Budget remains in the same mold 
with cuts to Indian education, health care, and other tribal programs 
drastically while completely eliminating other vital funding.
    For example, the Johnson O'Malley program which many tribes utilize 
for language and traditional revitalization has been completely 
eliminated from the budget. This would affect our school systems and 
Head Start programs that rely on this funding to assist tribal efforts 
to continue educating our youth of their heritage. With the passing of 
many of our elders this process becomes of more importance to our 
tribal communities. Cuts to other education matters such as 
construction, and grant assistance need to be increased as well as the 
need to increase funding for tribal colleges which are all vital to the 
citizens of Tribal Nations.
    Cuts to out tribal court systems would drastically affect the 
administration of justice in Indian country which in some cases is 
already under funded. The tribal court system serves as the backbone of 
our sovereignty and needs adequate funding. Without a strong and 
reputable tribal court system tribes will face the scrutiny and 
criticism from Indians and non Indians alike on the credibility of our 
administration of tribal laws and codes. With the gains made in Indian 
country to establish and manage tribal courts we cannot afford to 
continue to make progress in this very important area.
    Law Enforcement remains a top priority in terms of public safety 
for Indian country. On the Wind River Indian Reservation we currently 
have 10 officers to patrol roughly 3,500 square miles. We need more 
uniformed patrolman to continue to provide safety to our communities 
and address the problems of substance and drug abuse. Additional 
funding is also needed for tribal fish and game programs which oversee 
our natural resources and provides assistance to our law enforcement 
agencies when needed. Currently the Eastern Shoshone Tribe employs five 
fish and game officers which are funded directly from tribal funds.
    The need for adequate housing in Indian country continues to grow. 
Although there has been progress in Indian country in addressing this 
matter over the past years we still have a ways to go. Through tax 
credits and utilization of the 184 program some needs are being met on 
and off reservations but the need continues with the growth of young 
families and the need to sometimes restore and rebuild aging 
infrastructure. The elimination of the Housing Improvement Program in 
the President's budget would be very harmful to tribes who utilize the 
funding to renovate elderly and handicapped homes and at times provide 
homes to tribal people in need.
    There are many issues in the area of health care that I would like 
to address. Regarding the need for additional funding for Indian Health 
Service there are three areas that are of importance to tribal 
citizens. The first is the need for additional funding for contract 
health services. Contract Health Services allows for immediate care for 
those in medical crisis. Over the past 10 years these costs have not 
kept up with rate of inflation and have basically remained flat 
budgets. Tribal governments such as ours on the Wind River Reservation 
are currently covering costs associated with the inadequate funding the 
Indian Health Service currently receives. To receive contract health 
services a person needs to be in a life or death situation. For 
example, a person may be in a car accident due to substance abuse and 
receives injuries which threaten their life. This one car accident in 
itself may cost the local service unit $400,000.00 out of a 1.3-million 
dollar budget. In the meantime a person needing a knee replacement for 
several years will be denied services. Many emergency room visits are 
not paid by the Indian Health Service which eventually falls on the 
patient who may not have the means to pay and is soon turned into 
collection agencies. This has affected many tribal members who may wish 
to finance a home through other Federal programs such as the 184 
program offered through Housing of Urban Development.
    Substance abuse and diabetes continue to rise in Indian country. 
Methamphetamine use has a tremendous negative affect on our community 
and resources are needed on the law enforcement, prevention, and 
treatment areas to address this devastating drug. Innovative 
programming that deals with family intervention and after care support 
are critical to the recovery and well being of individuals who seek 
help. Access to treatment in Indian country is also a barrier at times 
when family involvement is needed. Regional Treatment Centers are 
needed across the country that will assist tribes to provide their 
citizen's with better access and support.
    Diabetes is an area in which many tribal people are affected. Many 
young people are now being diagnosed with this. disease that used to 
mostly affect adults. Funding to Indian country over the past years 
have allowed tribes like ours to develop tribal gyms and to promote 
healthy eating and exercise in our communities. Although there 
continues to be a rise in diabetes I feel funding to tribes has helped 
curb some of these numbers for the better.
    With the continued cuts to health care in Indian country I would 
ask members of Congress, from both parties and independents, to 
continue to address the reform of the health care system in this 
country. The rising costs of pharmaceuticals and the lack of access to 
health care in many communities has placed this country in a crisis 
mode. For Tribal Nations to continue to look after the needs of it's 
citizens health care I firmly believe these issues need to be 
addressed. Corporate greed continues to have priority over the well 
being of our Nation's citizens. Tribal governments, as well as States, 
are subject to this health care crisis.
    I would also ask the Members of Congress to carefully evaluate the 
War in Iraq. With military spending up and a record deficit, the 
President's budget cuts domestic spending. Being an Army Veteran I 
understand the importance of serving our great country and the 
responsibility of safeguarding our people. Tribal people have and 
continue to serve in our Armed Forces at a rate higher than any other 
group in the United States. We have always answered the call. The cuts 
to the Veterans Administration are of concern to our tribal communities 
as well. As many veterans return from service many need additional 
help. We would like our returning veterans to receive the care and 
respect they deserve.
    In closing, I would like to thank the committee on listening to my 
concerns as an elected official of my tribe. I am encouraged that many 
members of Congress acknowledge and respect the trust responsibility 
from the U.S. Government to Indian tribes. As we continue to defend our 
treaties and executive orders we will also continue to defend this 
great country of ours.
    Who Wee Who [thank you] and God bless.

    [GRAPHIC] [TIFF OMITTED] T3416.001
    
    [GRAPHIC] [TIFF OMITTED] T3416.002
    
    [GRAPHIC] [TIFF OMITTED] T3416.003
    
    [GRAPHIC] [TIFF OMITTED] T3416.004
    
    [GRAPHIC] [TIFF OMITTED] T3416.005
    
    [GRAPHIC] [TIFF OMITTED] T3416.006
    
    [GRAPHIC] [TIFF OMITTED] T3416.007
    
    [GRAPHIC] [TIFF OMITTED] T3416.008
    
    [GRAPHIC] [TIFF OMITTED] T3416.009
    
    [GRAPHIC] [TIFF OMITTED] T3416.010
    
    [GRAPHIC] [TIFF OMITTED] T3416.011
    
    [GRAPHIC] [TIFF OMITTED] T3416.012
    
    [GRAPHIC] [TIFF OMITTED] T3416.013
    
    [GRAPHIC] [TIFF OMITTED] T3416.014
    
    [GRAPHIC] [TIFF OMITTED] T3416.015
    
    [GRAPHIC] [TIFF OMITTED] T3416.016
    
    [GRAPHIC] [TIFF OMITTED] T3416.017
    
    [GRAPHIC] [TIFF OMITTED] T3416.018
    
    [GRAPHIC] [TIFF OMITTED] T3416.019
    
    [GRAPHIC] [TIFF OMITTED] T3416.020
    
    [GRAPHIC] [TIFF OMITTED] T3416.021
    
    [GRAPHIC] [TIFF OMITTED] T3416.022
    
    [GRAPHIC] [TIFF OMITTED] T3416.023
    
    [GRAPHIC] [TIFF OMITTED] T3416.024
    
    [GRAPHIC] [TIFF OMITTED] T3416.025
    
    [GRAPHIC] [TIFF OMITTED] T3416.026
    
    [GRAPHIC] [TIFF OMITTED] T3416.027
    
    [GRAPHIC] [TIFF OMITTED] T3416.028
    
    [GRAPHIC] [TIFF OMITTED] T3416.029
    
    [GRAPHIC] [TIFF OMITTED] T3416.030
    
    [GRAPHIC] [TIFF OMITTED] T3416.031
    
    [GRAPHIC] [TIFF OMITTED] T3416.032
    
    [GRAPHIC] [TIFF OMITTED] T3416.033
    
    [GRAPHIC] [TIFF OMITTED] T3416.034
    
    [GRAPHIC] [TIFF OMITTED] T3416.035
    
    [GRAPHIC] [TIFF OMITTED] T3416.036
    
    [GRAPHIC] [TIFF OMITTED] T3416.037
    
    [GRAPHIC] [TIFF OMITTED] T3416.038
    
    [GRAPHIC] [TIFF OMITTED] T3416.039
    
    [GRAPHIC] [TIFF OMITTED] T3416.040
    
    [GRAPHIC] [TIFF OMITTED] T3416.041
    
    [GRAPHIC] [TIFF OMITTED] T3416.042
    
    [GRAPHIC] [TIFF OMITTED] T3416.043
    
    [GRAPHIC] [TIFF OMITTED] T3416.044
    
    [GRAPHIC] [TIFF OMITTED] T3416.045
    
    [GRAPHIC] [TIFF OMITTED] T3416.046
    
    [GRAPHIC] [TIFF OMITTED] T3416.047
    
    [GRAPHIC] [TIFF OMITTED] T3416.048
    
    [GRAPHIC] [TIFF OMITTED] T3416.049
    
    [GRAPHIC] [TIFF OMITTED] T3416.050
    
    [GRAPHIC] [TIFF OMITTED] T3416.051
    
    [GRAPHIC] [TIFF OMITTED] T3416.052
    
    [GRAPHIC] [TIFF OMITTED] T3416.053
    
    [GRAPHIC] [TIFF OMITTED] T3416.054
    
    [GRAPHIC] [TIFF OMITTED] T3416.055
    
    [GRAPHIC] [TIFF OMITTED] T3416.056
    
    [GRAPHIC] [TIFF OMITTED] T3416.057
    
    [GRAPHIC] [TIFF OMITTED] T3416.058
    
    [GRAPHIC] [TIFF OMITTED] T3416.059
    
    [GRAPHIC] [TIFF OMITTED] T3416.060
    
    [GRAPHIC] [TIFF OMITTED] T3416.061
    
    [GRAPHIC] [TIFF OMITTED] T3416.062
    
    [GRAPHIC] [TIFF OMITTED] T3416.063
    
    [GRAPHIC] [TIFF OMITTED] T3416.064
    
    [GRAPHIC] [TIFF OMITTED] T3416.065
    
    [GRAPHIC] [TIFF OMITTED] T3416.066
    
    [GRAPHIC] [TIFF OMITTED] T3416.067
    
    [GRAPHIC] [TIFF OMITTED] T3416.068
    
    [GRAPHIC] [TIFF OMITTED] T3416.069
    
    [GRAPHIC] [TIFF OMITTED] T3416.070
    
    [GRAPHIC] [TIFF OMITTED] T3416.071
    
    [GRAPHIC] [TIFF OMITTED] T3416.072
    
    [GRAPHIC] [TIFF OMITTED] T3416.073
    
    [GRAPHIC] [TIFF OMITTED] T3416.074
    
    [GRAPHIC] [TIFF OMITTED] T3416.075
    
    [GRAPHIC] [TIFF OMITTED] T3416.076
    
    [GRAPHIC] [TIFF OMITTED] T3416.077
    
    [GRAPHIC] [TIFF OMITTED] T3416.078
    
    [GRAPHIC] [TIFF OMITTED] T3416.079
    
    [GRAPHIC] [TIFF OMITTED] T3416.080
    
    [GRAPHIC] [TIFF OMITTED] T3416.081
    
    [GRAPHIC] [TIFF OMITTED] T3416.082
    
    [GRAPHIC] [TIFF OMITTED] T3416.083
    
    [GRAPHIC] [TIFF OMITTED] T3416.084
    
    [GRAPHIC] [TIFF OMITTED] T3416.085
    
    [GRAPHIC] [TIFF OMITTED] T3416.086
    
    [GRAPHIC] [TIFF OMITTED] T3416.087
    
    [GRAPHIC] [TIFF OMITTED] T3416.088
    
    [GRAPHIC] [TIFF OMITTED] T3416.089
    
    [GRAPHIC] [TIFF OMITTED] T3416.090
    
    [GRAPHIC] [TIFF OMITTED] T3416.091
    
    [GRAPHIC] [TIFF OMITTED] T3416.092
    
    [GRAPHIC] [TIFF OMITTED] T3416.093
    
    [GRAPHIC] [TIFF OMITTED] T3416.094
    
    [GRAPHIC] [TIFF OMITTED] T3416.095
    
    [GRAPHIC] [TIFF OMITTED] T3416.096
    
    [GRAPHIC] [TIFF OMITTED] T3416.097
    
    [GRAPHIC] [TIFF OMITTED] T3416.098
    
    [GRAPHIC] [TIFF OMITTED] T3416.099
    
    [GRAPHIC] [TIFF OMITTED] T3416.100
    
    [GRAPHIC] [TIFF OMITTED] T3416.101
    
    [GRAPHIC] [TIFF OMITTED] T3416.102
    
    [GRAPHIC] [TIFF OMITTED] T3416.103
    
    [GRAPHIC] [TIFF OMITTED] T3416.104
    
    [GRAPHIC] [TIFF OMITTED] T3416.105
    
    [GRAPHIC] [TIFF OMITTED] T3416.106
    
    [GRAPHIC] [TIFF OMITTED] T3416.107
    
    [GRAPHIC] [TIFF OMITTED] T3416.108
    
    [GRAPHIC] [TIFF OMITTED] T3416.109
    
    [GRAPHIC] [TIFF OMITTED] T3416.110
    
    [GRAPHIC] [TIFF OMITTED] T3416.111
    
    [GRAPHIC] [TIFF OMITTED] T3416.112
    
    [GRAPHIC] [TIFF OMITTED] T3416.113
    
    [GRAPHIC] [TIFF OMITTED] T3416.114
    
    [GRAPHIC] [TIFF OMITTED] T3416.115
    
    [GRAPHIC] [TIFF OMITTED] T3416.116
    
    [GRAPHIC] [TIFF OMITTED] T3416.117
    
    [GRAPHIC] [TIFF OMITTED] T3416.118
    
    [GRAPHIC] [TIFF OMITTED] T3416.119
    
    [GRAPHIC] [TIFF OMITTED] T3416.120
    
    [GRAPHIC] [TIFF OMITTED] T3416.121
    
    [GRAPHIC] [TIFF OMITTED] T3416.122
    
    [GRAPHIC] [TIFF OMITTED] T3416.123
    
    [GRAPHIC] [TIFF OMITTED] T3416.124
    
    [GRAPHIC] [TIFF OMITTED] T3416.125
    
    [GRAPHIC] [TIFF OMITTED] T3416.126
    
    [GRAPHIC] [TIFF OMITTED] T3416.127
    
    [GRAPHIC] [TIFF OMITTED] T3416.128
    
    [GRAPHIC] [TIFF OMITTED] T3416.129
    
    [GRAPHIC] [TIFF OMITTED] T3416.130
    
    [GRAPHIC] [TIFF OMITTED] T3416.131
    
    [GRAPHIC] [TIFF OMITTED] T3416.132
    
    [GRAPHIC] [TIFF OMITTED] T3416.133
    
    [GRAPHIC] [TIFF OMITTED] T3416.134
    
    [GRAPHIC] [TIFF OMITTED] T3416.135
    
    [GRAPHIC] [TIFF OMITTED] T3416.136
    
    [GRAPHIC] [TIFF OMITTED] T3416.137
    
    [GRAPHIC] [TIFF OMITTED] T3416.138
    
    [GRAPHIC] [TIFF OMITTED] T3416.139
    
    [GRAPHIC] [TIFF OMITTED] T3416.140
    
    [GRAPHIC] [TIFF OMITTED] T3416.141
    
    [GRAPHIC] [TIFF OMITTED] T3416.142
    
    [GRAPHIC] [TIFF OMITTED] T3416.143
    
    [GRAPHIC] [TIFF OMITTED] T3416.144
    
    [GRAPHIC] [TIFF OMITTED] T3416.145
    
    [GRAPHIC] [TIFF OMITTED] T3416.146
    
    [GRAPHIC] [TIFF OMITTED] T3416.147
    
    [GRAPHIC] [TIFF OMITTED] T3416.148
    
    [GRAPHIC] [TIFF OMITTED] T3416.149
    
    [GRAPHIC] [TIFF OMITTED] T3416.150
    
    [GRAPHIC] [TIFF OMITTED] T3416.151
    
    [GRAPHIC] [TIFF OMITTED] T3416.152
    
    [GRAPHIC] [TIFF OMITTED] T3416.153
    
    [GRAPHIC] [TIFF OMITTED] T3416.154
    
    [GRAPHIC] [TIFF OMITTED] T3416.155
    
    [GRAPHIC] [TIFF OMITTED] T3416.156
    
    [GRAPHIC] [TIFF OMITTED] T3416.157
    
    [GRAPHIC] [TIFF OMITTED] T3416.158
    
    [GRAPHIC] [TIFF OMITTED] T3416.159
    
    [GRAPHIC] [TIFF OMITTED] T3416.160
    
    [GRAPHIC] [TIFF OMITTED] T3416.161
    
    [GRAPHIC] [TIFF OMITTED] T3416.162
    
    [GRAPHIC] [TIFF OMITTED] T3416.163
    
    [GRAPHIC] [TIFF OMITTED] T3416.164
    
    [GRAPHIC] [TIFF OMITTED] T3416.165
    
    [GRAPHIC] [TIFF OMITTED] T3416.166
    
    [GRAPHIC] [TIFF OMITTED] T3416.167
    
    [GRAPHIC] [TIFF OMITTED] T3416.168
    
                                 <all>

</pre></body></html>
